Appendix

Appendix A

United States v. Mier-Garces, 967 F.3d 1003 (2020)

967 F.3d 1003
United States Court of Appeals, Tenth Circuit.

UNITED STATES of America,
Plaintiff-Appellee,
v.
Edgar Rene MIER-GARCES,
Defendant-Appellant.
No. 18-1085
|
FILED July 28, 2020

Synopsis
Background: Following denial of his motion to dismiss
on double jeopardy grounds, defendant was convicted in
the United States District Court for the District of
Colorado, Raymond P. Moore, J., of conspiracy to
distribute controlled substances. Defendant appealed.

Holdings: The Court of Appeals, Holmes, Circuit Judge,
held that:

Office of the United States Attorney, Denver, Colorado,
for Plaintiff-Appellee.
Before BRISCOE, HOLMES, and McHUGH, Circuit
Judges.
Opinion
HOLMES, Circuit Judge.
Edgar Rene Mier-Garces was separately charged with
conspiracy to distribute controlled substances, in violation
of 21 U.S.C. § 846, in both the Western District of Texas
and the District of Colorado. After pleading guilty in the
Western District of Texas, Mr. Mier-Garces argued that
the District of Colorado indictment violated his rights
under the Fifth Amendment’s Double Jeopardy Clause.
The district court denied his motion to dismiss. Mr.
Mier-Garces was subsequently convicted and sentenced to
178 months’ imprisonment. On appeal, he challenges the
district court’s Double Jeopardy Clause ruling and argues
that the district court erroneously calculated his advisory
United States Sentencing Guidelines (“Guidelines” or
“U.S.S.G.”) range by applying an enhancement under §
2D1.1(b)(12). Exercising jurisdiction under 28 U.S.C. §
1291, we conclude the court did not err in either ruling
and affirm its judgment.

district court did not clearly err in determining that
conspiracies in Texas and Colorado were separate
conspiracies, and thus dismissal on double jeopardy
grounds was not warranted, and
district court did not clearly err in determining that
defendant’s home was used primarily or principally for
distributing a controlled substance, as required for
imposition of sentencing enhancement on that basis.

I

Affirmed.

A

*1006 Appeal from the United States District Court
for the District of Colorado (D.C. No.
1:15-CR-00360-RM-2)
Attorneys and Law Firms
Robert T. Fishman, Ridley, McGreevy & Winocur, PC,
Denver, Colorado, for Defendant-Appellant.
Karl L. Schock, Assistant United States Attorney (Jason
R. Dunn, United States Attorney, with him on the briefs),

Mr. Mier-Garces worked on the Mexican-American
border as a “gatekeeper” for a Mexican drug trafficker
known as “El Muñeco.” R., Vol. II, at 71 (Report of
Investigation, dated Nov. 30, 2015). Generally, in his
gatekeeper role, Mr. Mier-Garces assisted in smuggling
narcotics into *1007 the United States from Ciudad
Juarez, Mexico and then smuggling bulk currency back
into Mexico from the United States. Mr. Mier-Garces’s
role focused on receiving and loading vehicles for
couriers. Mr. Mier-Garces would retrieve these vehicles
from public locations in the El Paso, Texas metro area
and take them back to his residence in Chaparral, New

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Mier-Garces, 967 F.3d 1003 (2020)

Mexico where he would load narcotics into hidden,
after-market compartments that had been built into the
vehicles. He would return the drug-laden vehicles to the
couriers, who in turn would distribute the narcotics to
destinations throughout the United States—including, as
relevant here, Albuquerque, New Mexico, and Denver,
Colorado. The couriers would then return the cash
proceeds, secreted in the vehicles, to El Paso, where Mr.
Mier-Garces would retrieve the vehicles, unload the cash,
and ensure that the cash was transported back to El
Muñeco in Mexico. Approximately once every two
weeks, Mr. Mier-Garces loaded vehicles with narcotics.
Mr. Mier-Garces stored any excess currency and drugs in
a safe at his Chaparral residence.

locations in the El Paso area, where an individual would
take their vehicle for several hours and then return the
vehicle to them for the drive. Mr. Mier-Garces admitted
loading narcotics on at least two occasions into the
vehicles of Ms. Mota, Mr. Neufeld-Reimer (with Ms.
Wieler de Neufeld present for the loading), and Mr.
Lucero.

As a result of Mr. Mier-Garces’s gatekeeper activities, he
was indicted for participating in drug-trafficking
conspiracies in the District of Colorado and the Western
District of Texas. Below, we summarize the factual
circumstances relating to those indictments and the
particulars of those indictments.

Mr. Mier-Garces was indicted on September 3, 2015 in
the District of Colorado. A superseding indictment was
issued on May 2, 2016. This indictment charged the
offenses at issue here. Namely, the superseding
indictment charged Mr. Mier-Garces and “others both
known and unknown,” including Mr. Lozano and Ms.
Mota, with “knowingly and intentionally conspir[ing] to
distribute, and possess[ing] with the intent to distribute, 5
kilograms or more of a mixture and substance containing
a detectable amount of cocaine” in violation of 21 U.S.C.
§ 846. Id., Vol. I, at 70–71 (Superseding Indictment, filed
May *1008 2, 2016). The conspiracy was alleged to have
run from December 8, 2013 until March 22, 2016.

1

2

In addition to Mr. Mier-Garces, there were six other
named conspirators in the conspiracy charged in the
District of Colorado (“Colorado conspiracy”), including
Lucio Lozano and Martha Mota. Although not charged by
name along with Mr. Mier-Garces, the following
individuals were also participants in the Colorado
conspiracy: Franz Neufeld-Reimer, Helena Wieler de
Neufeld, and Jack Lucero.

Mr. Mier-Garces also was indicted for participating in a
drug-trafficking conspiracy in the Western District of
Texas (“Texas conspiracy”). Specifically, while the
transportation of drugs to Denver was occurring, on
March 8, 2015, Mr. Mier-Garces asked a confidential
informant to transport cocaine from El Paso to
Albuquerque. Mr. Mier-Garces took a vehicle from that
confidential informant, loaded it with 10.6 kilograms of
cocaine at his Chaparral residence, and returned it to the
informant believing that the informant would drive the
vehicle to Albuquerque. The confidential informant,
however, coordinated with federal agents who later
conducted a controlled delivery of the vehicle in
Albuquerque to individuals who believed the vehicle
contained drugs; they were subsequently arrested.

On August 15, 2014, Mr. Lucero was stopped by police
while driving an SUV in New Mexico. The trooper found
multiple bricks of cocaine in his car. A subsequent search
of his car revealed hotel receipts connecting Mr. Lucero
to an individual named Mr. Lozano, who was based in the
Denver, Colorado area. Investigators began surveillance
of Mr. Lozano’s residence in the Denver area.
Surveillance of this house, in turn, led investigators to
other individuals who were either distributing cocaine in
the Denver area or who were also trafficking narcotics
and currency between El Paso and Denver. One of these
couriers, Ms. Mota, was arrested on February 5, 2015,
while she was returning from Denver to El Paso with bulk
currency. Two other couriers, Mr. Neufeld-Reimer and
Ms. Wieler de Neufeld, were seen twice in March 2015
transporting narcotics between El Paso and Denver. Like
other couriers, they would drop off their vehicle in public

As a result of his participation in this El
Paso-to-Albuquerque movement of cocaine, Mr.
Mier-Garces was indicted on September 2, 2015 in the
Western District of Texas. A superseding indictment was
issued on November 10, 2015. The superseding
indictment charged Mr. Mier-Garces with conspiring
“with others to the Grand Jury known and unknown” to
possess with intent to distribute “5 kilograms or more of a
mixture or substance containing a detectable amount of
cocaine” in violation of 21 U.S.C. § 846. Id., Vol. II, at

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

United States v. Mier-Garces, 967 F.3d 1003 (2020)

66–67 (Superseding Indictment, filed Nov. 10, 2015). The
period of the charged conspiracy was only one day,
March 8, 2015. In this superseding indictment, Mr.
Mier-Garces also was separately charged with
participating in a conspiracy to launder monetary
instruments in violation of 18 U.S.C. § 1956(a)(2)(B)(ii),
(h). Besides Mr. Mier-Garces, no other co-conspirators
were named in the Texas indictment.

B
As Mr. Mier-Garces was seeking to reenter the United
States from Mexico on November 18, 2015, he was
arrested on a warrant that had been issued based on the
Texas indictment. At a post-arrest interview with agents
from both the Western District of Texas and the District
of Colorado, Mr. Mier-Garces explained his role in the
drug-trafficking operation, as summarized above. He also
agreed to allow agents to search his home. The search of
his home did not result in the discovery of any drugs but
did reveal various pieces of evidence consistent with his
description of his role, e.g., a safe used to store narcotics
and bulk currency. While an agent involved with the
District of Colorado indictment was present during this
interview (alongside the agents from the Western District
of Texas), Mr. Mier-Garces was not informed about the
Colorado indictment. On December 8, 2015, Mr.
Mier-Garces participated in another debriefing where he
again discussed his role in the drug-trafficking operation.
The agent involved in the Colorado case was not present
for that debriefing, but did receive a report about it later.
Though the agents from Texas and Colorado coordinated,
they purportedly worked to “de-conflict” so as to “keep
[their] cases separate” throughout the investigation. Id.,
Vol. III, at 191 (Tr. of Mots. Hr’g, dated May 26, 2017).
Mr. Mier-Garces subsequently pleaded guilty to the
charges in the Texas indictment, including the
drug-conspiracy charge, and was sentenced to fifty-seven
months’ imprisonment. Notably, the only drug quantity
attributed to Mr. Mier-Garces at sentencing was the 10.6
kilograms; that is, there was no finding that additional
drugs were involved in the conspiracy charged in the
Texas indictment.
*1009 After he pleaded guilty to the Texas charges, Mr.
Mier-Garces filed a motion to dismiss the Colorado
indictment on the ground that it violated his rights under
the Double Jeopardy Clause. The district court held an
evidentiary hearing on the motion, largely establishing the

information that we have summarized above. The
government additionally presented evidence that none of
the anonymous co-conspirators from the Texas indictment
were members of the conspiracy charged in the Colorado
indictment, and that the Colorado grand jury did not hear
any evidence concerning loads of narcotics going
anywhere other than Colorado; more specifically, the
grand jury received no evidence regarding the
10.6-kilogram load that went to Albuquerque.
At the hearing, the court listened to testimony from a
prosecutor and an agent from the Western District of
Texas, an agent from Colorado, and an investigator from
the Federal Public Defender’s Office in the Western
District of Texas. Both defense counsel and the
government offered oral argument.
The court ruled that Mr. Mier-Garces had failed to carry
his burden of demonstrating that the Texas and Colorado
conspiracies were in fact one conspiracy. The court noted
“that the evidence on that issue [i.e., whether there was in
fact one conspiracy] is little, and what little there is, is
inadequate.” Id. at 512 (Tr. of Oral Ruling, dated June 6,
2017). While the court noted the geographic overlap of
the conspiracies, it did not find that overlap determinative.
The court agreed with defense counsel that it was
“arguably unusual ... to see limited one-day conspiracies,”
as charged in the Texas indictment, but said that this
“does not answer the question whether or not the two
[conspiracies] are the same.” Id. at 513. The court noted
the potential difficulty raised by the Texas indictment’s
failure to name co-conspirators but did not think this
absence demonstrated “that we’re dealing with one rather
than two conspiracies,” because, other than the possible
exception of El Muñeco, there was no evidence that the
conspiracies shared co-conspirators. Id. at 513S14. The
court observed that the drugs destined for Albuquerque
were not mentioned to the Colorado grand jury. Finally,
the court noted that the interdependence of the
conspiracies was a factor that “the Tenth Circuit may
think is particularly important,” but it was one “that
neither side ha[d] really addressed.” Id. at 516S17. “What
I have is no evidence on interdependence being present or
absent. As I said, it’s not been raised.” Id. at 517. Thus,
the court denied the motion. Mr. Mier-Garces
subsequently went to trial and was convicted. He did not
renew his double-jeopardy motion during or after the trial.

C

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

United States v. Mier-Garces, 967 F.3d 1003 (2020)

After Mr. Mier-Garces was convicted, the United States
Probation Office prepared a Presentence Investigation
Report (“PSR”) for his sentencing.1 The PSR included a
two-level enhancement under Guidelines § 2D1.1(b)(12)
for Mr. Mier-Garces’s maintenance of his residence for
the purpose of distributing a controlled substance. Mr.
Mier-Garces objected to this enhancement. The district
court overruled Mr. Mier-Garces’s objection, finding that
the primary purpose of the property was the storage or
distribution of drugs. That finding was based on the
court’s subsidiary findings that “there’s no question that
the way this worked is drugs came up from Mexico, [and]
they were stored [at *1010 the house] until they were
transferred up to other parts of the United States.” Id.,
Vol. IV, at 934 (Tr. of Sentencing Hr’g, dated Mar. 2,
2018). The court relied on pictures of Mr. Mier-Garces’s
home that purportedly demonstrated his home was “a
place that ... a person does not really live in.” Id. at 935.
The pictures revealed that there was “no furniture,” no
refrigerator, “no stove,” “stuff thrown all over the floors,”
and, generally, “a mess” that made the home “not usable.”
Id. The court additionally relied on Mr. Mier-Garces’s
statements that “he was moving drugs ... at least twice a
month, which is a repetitive, continuing use of that
property to store, load, unload cars, store drugs and
money, unload and load cars,” and that “he doesn’t take
mail at that address.” Id. at 936. Because “it looks like no
one stays there with any regularity” and “there is
repetitive drug activity coming off of that property,” the
court found the evidence “tips, by a preponderance, in
favor of the [§ 2D1.1(b)(12) ] adjustment.” Id. Mr.
Mier-Garces was sentenced to 178 months’
imprisonment, to run consecutively to the Western
District of Texas sentence. Mr. Mier-Garces timely
appealed.

II
Mr. Mier-Garces first argues that the district court erred in
its Double Jeopardy Clause ruling. We set out our
standard of review and the appropriate substantive
standards before applying those standards to the relevant
facts. We properly consider only the factual record that
was before the district court at the time that it ruled on the
motion to dismiss because Mr. Mier-Garces did not renew
his motion during or after trial.2 See Regan-Touhy v.
Walgreen Co., 526 F.3d 641, 648 (10th Cir. 2008) (“We
generally limit our review on appeal to the record that was
before the district court when it made its decision ....”);
Hertz v. Luzenac Am., Inc., 370 F.3d 1014, 1019 (10th

Cir. 2004) (“[W]e may only ‘evaluate the trial court’s
decision from its perspective when it had to rule and not
indulge in review by hindsight.’ ” (quoting Old Chief v.
United States, 519 U.S. 172, 182 n.6, 117 S.Ct. 644, 136
L.Ed.2d 574 (1997)); see also Theriot v. Par. of Jefferson,
185 F.3d 477, 491 n.26 (5th Cir. 1999) (explaining that
appellate courts “may not consider facts which were not
before the district court at the time of the challenged
ruling”).
We conclude that the district court did not clearly err in
finding that the Colorado conspiracy and the Texas
conspiracy were in fact separate conspiracies (i.e., not a
single conspiracy). Accordingly, the court did not err in
denying Mr. Mier-Garces’s double-jeopardy motion.

A
“We review the factual findings underlying the
defendant’s double jeopardy claim for clear error.” United
States v. Leal, 921 F.3d 951, 958 (10th Cir. 2019)
(quoting United States v. Rodriguez-Aguirre, 73 F.3d
1023, 1024–25 (10th Cir. 1996)); accord United States v.
Mintz, 16 F.3d 1101, 1104 (10th Cir. 1994). More
specifically, a district court’s findings concerning whether
a defendant was involved in a “single, continuing
conspiracy,” United States v. Beachner Constr. Co., 729
F.2d 1278, 1281 (10th Cir. 1984), or, alternatively,
involved in “separate and distinct conspiracies,” United
States v. Jones, 816 F.2d 1483, 1486 (10th Cir. 1987), are
factual in nature, and thus are reviewed for *1011 clear
error, see id. (holding that whether offenses involved
“separate and distinct conspiracies” was “essentially a
finding of fact, and we therefore review it under the
clearly erroneous standard”); Beachner, 729 F.2d at 1281
(“The standard we must apply in reviewing the district
court’s finding of a ‘single, continuing conspiracy’ is
whether it was ‘clearly erroneous.’ ” (quoting United
States v. Jabara, 644 F.2d 574, 577 (6th Cir. 1981))).3
Notably, as amplified below, the issue of
interdependence—which is the key to resolving the
question of whether there is one or more conspiracies—is
a factual finding that we review “for clear error.” Leal,
921 F.3d at 958. “The district court’s ultimate
determination regarding double jeopardy is, however, a
question of law we review de novo.” Id. (quoting
Rodriguez-Aguirre, 73 F.3d at 1025).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

United States v. Mier-Garces, 967 F.3d 1003 (2020)

B
We turn now to the substantive legal standards that apply
to Mr. Mier-Garces’s double-jeopardy arguments. After
providing a brief overview of the Double Jeopardy
Clause, we explain that under our precedent—in order to
discern whether separately charged conspiracies are in
fact one—the central and determinative question is
whether those conspiracies are interdependent. And, by
way of preview of our subsequent analysis, we ultimately
conclude, like the district court, that Mr. Mier-Garces’s
showing of interdependence was inadequate to sustain his
double-jeopardy challenge.

1
The Double Jeopardy Clause states that no person shall
“be subject for the same offence to be twice put in
jeopardy.” U.S. CONST. amend. V. “[A]t its core, the
Clause means that those acquitted or convicted of a
particular ‘offence’ cannot be tried a second time for the
same ‘offence.’ ” Gamble v. United States, ––– U.S.
––––, 139 S. Ct. 1960, 1964, 204 L.Ed.2d 322 (2019).
“This guarantee recognizes the vast power of the
sovereign, the ordeal of a criminal trial, and the injustice
our criminal justice system would invite if prosecutors
could treat trials as dress rehearsals until they secure the
convictions they seek.” Currier v. Virginia, ––– U.S.
––––, 138 S. Ct. 2144, 2149, 201 L.Ed.2d 650 (2018).
The Double Jeopardy Clause’s guarantee includes
different types of protections. See United States v. Dixon,
509 U.S. 688, 696, 113 S.Ct. 2849, 125 L.Ed.2d 556
(1993) (“This protection applies both to successive
punishments and to successive prosecutions for the same
criminal offense.”); Leal, 921 F.3d at 959 (“It provides
three protections. ‘It protects against a second prosecution
for the same offense after acquittal. It protects against a
second prosecution for the same offense after conviction.
And it protects against multiple punishments for the same
offense.’ ” (quoting North Carolina v. Pearce, 395 U.S.
711, 717, 89 S.Ct. 2089, 23 L.Ed.2d 656 (1969)).
“When the government charges a defendant under
separate statutes for the same conduct, the test derived
from *1012 Blockburger v. United States, 284 U.S. 299,
52 S.Ct. 180, 76 L.Ed. 306 (1932), determines whether
the crimes are the ‘same offense’ for double jeopardy
purposes” and thus whether the Double Jeopardy Clause
was violated. Leal, 921 F.3d at 960 (emphasis added); see

Blockburger, 284 U.S. at 304, 52 S.Ct. 180 (“[W]here the
same act or transaction constitutes a violation of two
distinct statutory provisions, the test to be applied to
determine whether there are two offenses or only one, is
whether each provision requires proof of a fact which the
other does not.”); accord United States v. 9844 S. Titan
Court, 75 F.3d 1470, 1488 (10th Cir. 1996).
In other words, Blockburger’s so-called “same-elements
test ... inquires whether each offense contains an element
not contained in the other; if not, they are the ‘same
offence’ and double jeopardy bars additional punishment
and successive prosecution.” Dixon, 509 U.S. at 696, 113
S.Ct. 2849; see Akhil Reed Amar, Double Jeopardy Law
Made Simple, 106 Yale L.J. 1807, 1813 (1997)
(“Blockburger treats two offenses as different if and only
if each requires an element the other does not.”). The
Blockburger test involves a legal analysis focused on the
elements of the separate statutes. See, e.g., United States
v. Cardall, 885 F.2d 656, 665 (10th Cir. 1989) (rejecting
the defendant’s “claim that the focus of the double
jeopardy analysis [under Blockburger] is conduct, not the
legal elements of the offense”); United States v. Davis,
793 F.2d 246, 248 (10th Cir. 1986) (“The double jeopardy
test does not focus on the acts charged in the indictment
or the evidence at trial, but rather on the elements of the
crimes.”); see also United States v. Angilau, 717 F.3d
781, 787 (10th Cir. 2013) (“In assessing whether the
crimes require proof of different facts, we do ‘not focus
on the acts charged in the indictment ... but rather on the
elements of the crimes.’ ” (omission in original) (quoting
Davis, 793 F.2d at 248)).
But, as most relevant here, the Double Jeopardy Clause
also provides a distinct protection for defendants who
have been charged with violating the same statute more
than one time when they have in fact only violated it
once. See Sanabria v. United States, 437 U.S. 54, 70 n.24,
98 S.Ct. 2170, 57 L.Ed.2d 43 (1978) (“Because only a
single violation of a single statute is at issue here, we do
not analyze this case under the so-called ‘same evidence’
test [i.e., the same-elements test of Blockburger], which is
frequently used to determine whether a single transaction
may give rise to separate prosecutions, convictions,
and/or punishments under separate statutes.”); United
States v. Rigas, 605 F.3d 194, 204 (3d Cir. 2010) (en
banc) (“The Blockburger test is a tool for determining
whether Congress intended to separately punish violations
of distinct statutory provisions, and is therefore
inapplicable where a single statutory provision was
violated.”); United States v. Asher, 96 F.3d 270, 273 (7th
Cir. 1996) (“[B]y its very terms the Blockburger test
applies only where ‘the same act or transaction constitutes
a violation of two distinct statutory provisions’[.]”

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

United States v. Mier-Garces, 967 F.3d 1003 (2020)

(quoting Blockburger, 284 U.S. at 304, 52 S.Ct. 180)).
More specifically in the conspiracy context, “[w]hen the
government charges a defendant with committing two (or
more) conspiracies [involving the same conspiracy
statute], whether the charges are for the ‘same offense’
depends on whether they ‘are in fact based on a
defendant’s participation in a single conspiracy.’ If so,
double jeopardy ‘bars the second prosecution.’ ” Leal,
921 F.3d at 960 (emphasis added) (quoting United States
v. Daniels, 857 F.2d 1392, 1393 (10th Cir. 1988)); accord
Daniels, 857 F.2d at 1394 (noting, in the context of two
indictments charging conspiracy to manufacture
methamphetamine, that the defendant must prove “the
*1013 two offenses contained in the two indictments are
the same offense both in law and fact” (emphasis added));
see United States v. Sasser, 974 F.2d 1544, 1550 (10th
Cir. 1992) (“We have held that ‘if two charges of
conspiracy are in fact based on a defendant’s participation
in a single conspiracy, the former jeopardy clause bars the
second prosecution.’ ” (quoting Daniels, 857 F.2d at
1393)); Wilkett v. United States, 655 F.2d 1007, 1014
(10th Cir. 1981) (“If two charges of conspiracy are in fact
based on a defendant’s participation in a single
conspiracy, the former jeopardy clause bars the second
prosecution.”).
Accordingly, in this context, where the defendant is
separately charged with two (or more) conspiracy
offenses under the same conspiracy statute, the
double-jeopardy analysis is centered on the factual
question of whether the charged conspiracies are actually
in fact one. See, e.g., Beachner, 729 F.2d at 1281; cf.
Amar, supra, at 1817 (“[U]nder the Double Jeopardy
Clause, an offense must not only be the same in law—it
must also be the same in fact. Even if [the defendant] is
convicted of robbery in an earlier trial, he may later be
charged with and tried for robbery so long as the second
indictment
concerns
a
factually
different
robbery—committed, say, on a different day against a
different victim.”).

2
We recently addressed a double-jeopardy challenge in a
very similar setting involving two drug-trafficking
conspiracy prosecutions brought under 21 U.S.C. § 846.
See Leal, 921 F.3d at 957. Leal has helpfully synthesized
and clarified our precedent as it applies to circumstances
such as these. See id. at 959–61. For reasons we elaborate

on in Part II.B.3 below, we are generally guided by its
framework here.
In the double-jeopardy context,
[w]hen, as here, a defendant claims that a second
conspiracy charge is for the same conspiracy as the first
conspiracy charge[,] ... “the court must determine
whether the two transactions [alleged in the charges]
were interdependent and whether the [co-conspirators]
were ‘united in a common unlawful goal or purpose.’ ”
Id. at 960 (third and fourth alterations in original)
(quoting Mintz, 16 F.3d at 1104); accord Sasser, 974 F.2d
at 1550. More specifically, “[o]f principal concern is
whether the conduct of the alleged co-conspirators,
however diverse and far-ranging, exhibits an
interdependence.” United States v. Daily, 921 F.2d 994,
1007 (10th Cir. 1990), overruled on other grounds by
United States v. Gaudin, 515 U.S. 506, 115 S.Ct. 2310,
132 L.Ed.2d 444 (1995); accord Leal, 921 F.3d at 960;
Sasser, 974 F.2d at 1550. And “the focal point of the
analysis” for determining whether two charged
conspiracies are interdependent is the inquiry into
whether they are “united in a common unlawful goal or
purpose.” Daily, 921 F.2d at 1007; accord Sasser, 974
F.2d at 1550.
A “common goal, however, is not by itself enough to
establish interdependence: ‘What is required is a shared,
single criminal objective, not just similar or parallel
objectives between similarly situated people.’ ” United
States v. Carnagie, 533 F.3d 1231, 1239 (10th Cir. 2008)
(quoting United States v. Evans, 970 F.2d 663, 670 (10th
Cir. 1992)); see id. (noting that although the two separate
groups alleged to be joined in one conspiracy “had the
same general objective—to profit from submitting
fraudulent FHA loans—it does not necessarily mean that
the separate groups were interdependent”). “Conspiracies
*1014 aimed at different ends are not interdependent.”
Leal, 921 F.3d at 961.
“A shared objective is present when ‘the activities of [the]
alleged co-conspirators in one aspect of the charged
scheme were necessary or advantageous to the success of
the activities of co-conspirators in another aspect of the
charged scheme, or the success of the venture as a whole.’
” Id. at 960 (alteration in original) (quoting Daily, 921
F.2d at 1007); see Sasser, 974 F.2d at 1550 (explaining
“interdependence” as requiring such a shared objective).
“[T]he evidence must ‘show that the [first] conspiracy
was designed to further and to promote the success of the
[second] conspiracy.’ ” Leal, 921 F.3d at 960 (second and
third alterations in original) (quoting Sasser, 974 F.2d at
1550); cf. United States v. Hamilton, 587 F.3d 1199,
1208–09 (10th Cir. 2009) (“The requirement is satisfied

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

United States v. Mier-Garces, 967 F.3d 1003 (2020)

‘if the alleged coconspirators were united in a common
unlawful goal or purpose and if a defendant’s activities
facilitated the endeavors of another alleged coconspirator
or facilitated the venture as a whole.’ ” (emphasis
omitted) (quoting United States v. Ailsworth, 138 F.3d
843, 851 (10th Cir. 1998))); United States v. Horn, 946
F.2d 738, 740–41 (10th Cir. 1991) (explaining that
“interdependence is present” when “the activities of a
defendant charged with conspiracy facilitated the
endeavors of other alleged coconspirators or facilitated
the venture as a whole”).
If, as here, there is not “direct evidence” that the
separately charged conspiracies shared a single unlawful
objective—evidence that would cogently support a
finding of interdependence—at least primarily, “courts
look for commonalities in time, place, and personnel. If
two conspiracies involved the same people, occurred in
the same place, and happened at roughly the same time,
courts are more likely to find the conspiracies were
interdependent.” Leal, 921 F.3d at 961. But these factors
are not intended to be exhaustive; more specifically, we
may at least consider other factors that our case law has
previously shown have a bearing on the interdependence
question.
In that regard, in seeking to determine whether separate
conspiracy charges actually pertain to one conspiracy, we
also have looked at whether there is a commonality
among the conspiracies’ overt acts. See, e.g., Daniels, 857
F.2d at 1393 (noting that the indictments “each set forth
different overt acts”); Wilkett, 655 F.2d at 1015
(concluding that the defendant could not be retried
because the government sought to introduce the same
evidence of overt acts in both the Eastern and Western
Districts of Oklahoma). Of course, in drug-trafficking
conspiracies prosecuted under 21 U.S.C. § 846, like those
here, “an overt act is not a necessary element of
conspiracy.” United States v. Savaiano, 843 F.2d 1280,
1294 (10th Cir. 1988); see, e.g., United States v. Shabani,
513 U.S. 10, 11, 115 S.Ct. 382, 130 L.Ed.2d 225 (1994)
(“This case asks us to consider whether 21 U.S.C. § 846,
the drug conspiracy statute, requires the Government to
prove that a conspirator committed an overt act in
furtherance of the conspiracy. We conclude that it does
not.”). Consequently, the government is not obliged to
plead overt acts when charging § 846 conspiracies. See,
e.g., United States v. Staggs, 881 F.2d 1527, 1530 (10th
Cir. 1989) (en banc) (“Generally, an indictment is
sufficient if it contains the elements of the offense
charged ....”). And the government here did not do so in
either the Texas indictment or the Colorado indictment.
However, the record may still contain evidence bearing
on the conspirators’ activities that may assist the court in

determining whether two charged conspiracies are in fact
one.
*1015 Furthermore, we also have taken into account
whether there are any commonalities between the
statutory violations that are the objects of the charged
conspiracies. For example, in United States v. Puckett,
692 F.2d 663 (10th Cir. 1982), we noted that the
defendant had been convicted of conspiring “to violate ...
18 U.S.C. § 2314, which proscribes the interstate
transportation of stolen or fraudulently obtained
securities,” in the first indictment, but that the second
indictment “charged no violation of 18 U.S.C. § 2314.”
Id. at 668. After recounting this difference, we concluded
that we were “satisfied the trial court’s ruling that [the
defendant] failed to establish the existence of a single
conspiracy encompassing both the Oklahoma and
Colorado charges, [was] not clearly erroneous.” Id.
All of these factors may not be relevant to the
double-jeopardy determination in a given conspiracy case.
Importantly, the defendant “carr[ies] the burden of
proving double jeopardy.” Mintz, 16 F.3d at 1104; accord
Rodriguez-Aguirre, 73 F.3d at 1025; see also Leal, 921
F.3d at 959 n.6 (noting “the defendant bears the burden of
showing a double jeopardy violation” and rejecting
invitation to adopt a burden-shifting framework that other
circuits use). Consequently, courts are guided by the
“arguments in [defendants’] briefing” in determining
which factors are relevant to the resolution of the
double-jeopardy question. Leal, 921 F.3d at 962.

3
Notwithstanding our articulation above of the controlling
substantive standards, we acknowledge that the
double-jeopardy law in our circuit is not pellucid on this
matter in the context of separate conspiracy prosecutions
that, as here, involve the same conspiracy statute. And
that lack of clarity is evident in the parties’ briefing. Thus,
we pause to explain our process for discerning the
controlling standards for resolving Mr. Mier-Garces’s
double-jeopardy challenge. More specifically, we
elaborate on our decision to generally follow the
framework articulated in Leal.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

United States v. Mier-Garces, 967 F.3d 1003 (2020)

a
In his opening brief, Mr. Mier-Garces invoked the
so-called “totality of the circumstances test” and insisted
that it was applicable in the context of separate conspiracy
charges under the same conspiracy statute to resolve “the
multiple/single conspiracy issue.” Aplt.’s Opening Br. at
15 (quoting In re Grand Jury Proceedings, 797 F.2d
1377, 1380 (6th Cir. 1986)). As to the nature of that test,
he observed the following:
[w]hen applying the totality of the circumstances test,
five general factors are to be considered: “(1) the time
periods covered by the alleged conspiracies; (2) the
places where the conspiracies are alleged to have
occurred; (3) the persons charged as coconspirators; (4)
the overt acts alleged to have been committed in
furtherance of the conspiracies, or any other
descriptions of the offenses charged which indicate the
nature and scope of the activities being prosecuted; and
(5) the substantive statutes alleged to have been
violated.”
Id. at 15–16 (quoting United States v. Alvarado, 440 F.3d
191, 198 (4th Cir. 2006)).
Mr. Mier-Garces argued that this test should be applied in
lieu of the well-established and seminal double-jeopardy
test announced by the Supreme Court in Blockburger,
because in cases such as this one, “the Blockburger
analysis proves difficult of application since it assumes a
violation of ‘two distinct statutory provisions.’ ” Id. at 14
(italics added) (quoting United States v. Allen, 539 F.
Supp. 296, 304 (C.D. Cal. 1982), which in turn quotes
Blockburger, 284 U.S. at 304, 52 S.Ct. 180). In his
opening brief, Mr. Mier-Garces did not *1016 mention
interdependence—much less argue that interdependence
is relevant to the double-jeopardy determination in
circumstances such as these—and, more specifically, did
not expressly argue that the Texas and Colorado
conspiracies were interdependent. Rather, he simply
argued the two conspiracies shared the general “common
goal” of importing cocaine. Id. at 23. Only in his reply
brief
did
Mr.
Mier-Garces
expressly
make
interdependence arguments. See Aplt.’s Reply Br. at 7S9.
In asking us to apply a totality-of-the-circumstances test,
Mr. Mier-Garces relied exclusively on out-of-circuit
authority—not our own. See, e.g., United States v.
Sertich, 95 F.3d 520, 523–24 (7th Cir. 1996) (“To
determine whether the two charges arise out of one
conspiracy, the court must look to such factors as whether
they involve the same overt acts, people, places, or time
period; whether they share similar objectives or modus
operandi; or whether the two conspiracies depend upon
each other for success.”); United States v. Smith, 82 F.3d

1261, 1271 (3d Cir. 1996) (“The ultimate purpose of the
totality of the circumstances inquiry is to determine
whether two groups of conspirators alleged by the
government to have entered separate agreements are
actually all committed to the same set of objectives in a
single conspiracy.”).
This reliance on out-of-circuit authority is not surprising
because, as the government pointed out in its response
brief, see Aplee.’s Resp. Br. at 12, in the context of
conspiracy prosecutions involving the same conspiracy
statute, we have expressly rejected on more than one
occasion the totality-of-the-circumstances test and applied
instead what we have labeled a “same-evidence” test, see
Puckett, 692 F.2d at 668 (electing to “adhere to the same
evidence test” though the defendant “urge[d]” the panel
“to employ the ‘totality of the circumstances’ test”); see
also Sasser, 974 F.2d at 1549 n.4 (noting Puckett’s
adherence to the same-evidence test, in responding to the
defendant’s “suggest[ion] that we adopt a ‘totality of the
circumstances’ test”); Jones, 816 F.2d at 1486 (“This
circuit applies the ‘same evidence’ test to determine the
validity of a double jeopardy claim.”); cf. United States v.
Genser, 710 F.2d 1426, 1429 & n.3 (10th Cir. 1983)
(declining to “abandon” the “ ‘same evidence’ test in
favor of a ‘totality of the circumstances’ [test],” where the
question was whether “the offenses of ‘distributing’ and
‘dispensing’ controlled substances in violation of the
Controlled Substances Act are the ‘same offense’ for
double jeopardy purposes”).
As we have formulated it, the same-evidence test
“provides that offenses charged are identical in law and
fact only if the facts alleged in one would sustain a
conviction if offered in support of the other.” Puckett, 692
F.2d at 667; accord Mintz, 16 F.3d at 1104; Wilkett, 655
F.2d at 1013. Notably, we have associated this test with
Blockburger. See, e.g., Mintz, 16 F.3d at 1104; Puckett,
692 F.2d at 667; see also Sasser, 974 F.2d at 1549
(referring to “the Blockburger ‘same evidence’ test”). In
its response brief, the government asserted that the
same-evidence test was the correct one to apply in
addressing Mr. Mier-Garces’s double-jeopardy challenge.
The government further asserted, however, that “[t]he
defendant must also show that the two conspiracies were
interdependent and that the conspirators in each shared a
single criminal objective.” Aplee.’s Resp. Br. at 12.4
*1017 We decided Leal after the parties completed their
briefing in this case. Accordingly, we requested
supplemental briefing from them concerning Leal’s
impact on their arguments about the appropriate
substantive standards to apply to Mr. Mier-Garces’s
double-jeopardy challenge. Mr. Mier-Garces responds

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

United States v. Mier-Garces, 967 F.3d 1003 (2020)

that “Leal establishes that Blockburger’s ‘same evidence’
test does not apply to this case.” Aplt.’s Suppl. Br. at 5;
accord id. at 1. He reasons further that Leal confirms that
his initial approach was the correct one:
Although the Court in Leal did not refer to the factors
outlined above as a “totality of the circumstances” test,
they are the same factors that other Circuits consider
when examining the “totality of the circumstances” in
order to determine whether successive conspiracy
prosecutions violate the protections against double
jeopardy. Similarly, the factors examined in Leal are
the same factors that Mier-Garces examined in his
opening and reply briefs ....
Id. at 2. And he tries to show us, through citations to his
earlier briefing, that he has made at least some arguments
concerning interdependence. See id. at 2 n.1.
On the other hand, the government asserts that “Leal did
not overrule this Court’s ‘same evidence’ test, which
remains the applicable test in this circuit. It confirmed,
however, that two conspiracies cannot be the same
offense without interdependence.” Aplee.’s Suppl. Br. at
1. Further, says the government, Leal underscores that
where separate conspiracy charges are at issue in the
double-jeopardy challenge, the “inquiry necessarily
involves consideration of whether the second charge is
based on a ‘different set of facts’ than the first.” Id. at 2
(quoting Daniels, 857 F.2d at 1393). Under the
government’s
reasoning,
however,
even
the
same-evidence test recognizes the determinative nature of
the interdependence factor: “[i]n the parlance of the ‘same
evidence’ test, where two conspiracies are not
interdependent, evidence of one could not possibly prove
the other.” Id. at 3. Nevertheless, the government insists
that “Leal’s focus on interdependence did not supplant the
‘same evidence’ test or mean that only interdependence
matters. ... Most significantly, because the essence of a
conspiracy is the agreement, there must be a single
agreement with a single set of objectives.” Id. (citation
omitted).

b
After considering the parties’ arguments, we have
determined that Leal’s framework helpfully synthesizes
and clarifies our precedent and, consequently, embodies
the proper substantive standards for resolving Mr.
Mier-Garces’s double-jeopardy challenge—which arises
in the context of separate conspiracy prosecutions

involving the same conspiracy statute. As we outline
below, Leal’s framework underscores the central and
determinative *1018 importance in our case law of
interdependence in the assessment of whether two
separately charged conspiracies are actually a single
conspiracy. And, where there is not direct evidence of a
single, shared unlawful objective, which would cogently
support a finding of interdependence, the Leal framework
allows for the consideration of other factors to establish
interdependence, including primarily those that we have
historically deemed relevant to the double-jeopardy
analysis in the context of separate conspiracies. As for our
well-worn same-evidence test, we recognize that “we
must endeavor to interpret our cases in a manner that
permits them to coexist harmoniously.” United States v.
Hansen, 929 F.3d 1238, 1254 (10th Cir. 2019). And,
contrary to Mr. Mier-Garces’s suggestion, we do not
believe that Leal is irreconcilable with our same-evidence
test; properly construed, that test can coexist
harmoniously with the Leal framework. We address these
matters below.
To begin, recall that Leal’s framework puts the factor of
interdependence front and center in the inquiry
concerning whether two (or more) separate conspiracies
based on the same statute are in fact one and makes the
presence of a single, shared unlawful objective the key
indicator of such interdependence. There, we held that
[w]hen, as here, a defendant claims that a second
conspiracy charge is for the same conspiracy as the first
conspiracy charge and therefore is a double jeopardy
violation, “the court must determine whether the two
transactions [alleged in the charges] were
interdependent and whether the [co-conspirators] were
‘united in a common unlawful goal or purpose.’ ”
Leal, 921 F.3d at 960 (second and third alterations in
original) (quoting Mintz, 16 F.3d at 1104). In this regard,
Leal does not plow new ground: our prior case law has
repeatedly centered its double-jeopardy analysis, in
circumstances such as these, on an interdependence
inquiry, focusing primarily on the presence of a single,
shared
unlawful
objective
to
discern
such
interdependence. See Daily, 921 F.2d at 1007 (“Of
principal concern is whether the conduct of the alleged
co-conspirators, however diverse and far-ranging, exhibits
an interdependence.”); id. (“As to the existence of a single
conspiracy, the focal point of the analysis is whether the
alleged co-conspirators were united in a common
unlawful goal or purpose.”); accord Carnagie, 533 F.3d
at 1239; Mintz, 16 F.3d at 1104; Sasser, 974 F.2d at 1550.
Leal, however, does highlight the relevance of
“commonalities in time, place, and personnel” to the
determination of whether two (or more) separate

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

United States v. Mier-Garces, 967 F.3d 1003 (2020)

conspiracies are actually interdependent and, thus a single
conspiracy. 921 F.3d at 961. Although Leal helpfully
provides us with a list of key commonalities, the
pertinence of these factors to this interdependence
determination—whether singly or, more often, in various
combinations—is clearly evident across our case law,
figuring prominently in numerous other cases. See, e.g.,
Mintz, 16 F.3d at 1106 (concluding that the district court’s
finding that marijuana operations in Kansas and Florida
were part of the same conspiracy was not clearly
erroneous in part because “the ultimate goal was to mix
the two types of marijuana [i.e., from Kansas and Florida]
for sale in New York” (emphasis added)); Sasser, 974
F.2d at 1550 (“[The defendant] also has failed to
demonstrate that any of the participants in the two
conspiracies—besides [the defendant] himself and
possibly [one coconspirator]—had any knowledge that the
other conspiracy existed. The two conspiracies operated
independently of one another, with the success of each
dependent exclusively on the individual labors of its own,
separate participants.”); *1019 Daniels, 857 F.2d at 1393
(concluding two distinct conspiracies existed because “the
district court found that [the defendant’s] conspiracy with
his brother and others, which was the basis for the first
indictment, terminated sometime during the summer of
1984 when [the defendant] ‘split’ with his brother, and
that [the defendant] thereafter formed a new conspiracy
with [a co-conspirator] to manufacture amphetamines”);
Puckett, 692 F.2d at 668 (noting “a time period overlap
between the two indictments” before nevertheless
concluding that the defendant had “failed to establish the
existence of a single conspiracy encompassing both the
Oklahoma and Colorado charges”); United States v.
McMurray, 680 F.2d 695, 699 (10th Cir. 1981) (en banc)
(holding that “one conspiracy has been shown to exist,
and the defense of double jeopardy was valid,” where
“[w]e have here a limited time span with the same cast of
characters throughout”); Wilkett, 655 F.2d at 1014 (in
noting the commonalities between the two conspiracies,
highlighting language in the indictments evincing the
conspiracies’ temporal overlap and stating that “[a]bout
the only difference between the two indictments is that
the Eastern District conspiracy is alleged to have
commenced a few months earlier than the conspiracy in
the Western District”). And, because Leal’s list of
commonalities does not purport to be exhaustive, it does
not preclude consideration of other factors that we have
deemed relevant to double-jeopardy challenges in
conspiracy cases involving the same conspiracy statute,
such as whether there are commonalities among the
conspiracies’ overt acts, see, e.g., Wilkett, 655 F.2d at
1015, or whether the objects of the charged conspiracies
involved different statutes, see, e.g., Puckett, 692 F.2d at
668. Accordingly, Leal provides a helpful, coherent

framework for examining factors that we historically have
found to be relevant.
Furthermore, acknowledging that “we must endeavor to
interpret our cases in a manner that permits them to
coexist harmoniously,” Hansen, 929 F.3d at 1254, we do
not
believe—contrary
to
Mr.
Mier-Garces’s
suggestion—that Leal is irreconcilable with our
same-evidence test. Specifically, even in our cases that
have nodded to the same-evidence test as binding
precedent—where double-jeopardy challenges were based
on separate conspiracy charges—the substance of the
analysis has been materially congruent with the Leal
framework. We read these cases as essentially standing
for two important, broad propositions. First, in addressing
double-jeopardy challenges based on the prosecution of
separate conspiracy charges, courts must conduct
extensive factual analyses of the charged conspiracies,
focusing on commonalities—including time, place, and
personnel—in order to assess whether the conspiracies at
issue are in fact one. And, second, of primary importance
in this factual inquiry is the question of
interdependence—i.e., whether the charged conspiracies
are interdependent. So construed, these cases coexist
harmoniously with Leal’s framework.
Almost two decades ago, in Wilkett, we insightfully
observed the following:
[T]he same evidence test is not always adequate for
testing applicability of the former jeopardy principle
where the two crimes charged are both conspiracies.
Conspiracies frequently involve several or even dozens
of overt acts and may extend over several months or
years. Thus, it may frequently be possible to show the
existence of a single conspiracy through proof of more
than one set of facts. If two charges of conspiracy are in
fact based on a defendant’s participation in a single
conspiracy, the former jeopardy clause bars the second
prosecution. As a consequence, it may be necessary to
look beyond the question of what evidence will be
offered in proof of the two *1020 conspiracies, and to
determine whether under all the circumstances a single
conspiracy is present.
655 F.2d at 1013–14 (emphasis added) (citations
omitted).5 And, in practice, panels of our court have
heeded Wilkett’s advice. That is, notwithstanding their
invocations of the same-evidence test, they have
conducted extensive factual analyses of the charged
conspiracies, focusing on commonalities—including time,
place, and personnel—in order to assess whether the
separate conspiracies at issue were in fact one. See Mintz,
16 F.3d at 1104–06; Sasser, 974 F.2d at 1549–50;
Puckett, 692 F.2d at 667–68; see also United States v.
Cardenas, 105 F. App’x 985, 987–88 (10th Cir. 2004)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

United States v. Mier-Garces, 967 F.3d 1003 (2020)

(unpublished); cf. United States v. Martinez, 562 F.2d
633, 637–38 (10th Cir. 1977) (cited by Puckett in support
of the same-evidence test; performing extensive factual
analysis focusing on such commonalities).
Notably, none of these same-evidence cases expressly
rested their holdings on a determination as to whether the
requirements of the same-evidence test were
satisfied—that is, on an explicit conclusion regarding
whether “the facts alleged in one [conspiracy] would
sustain a conviction if offered in support of the other
[conspiracy].” Puckett, 692 F.2d at 667.6 In other words,
these cases have not adhered rigidly to the language of
that test. On the other hand, some of the key cases that
have expressly invoked the same-evidence test have
recognized the centrality of the interdependence factor to
the determination of whether separately charged
conspiracies are actually one. See, e.g., Mintz, 16 F.3d at
1104; Sasser, 974 F.2d at 1550; see also Cardenas, 105 F.
App’x at 987.
Therefore, we read our cases that have expressly invoked
the same-evidence test as essentially standing for two
important, broad propositions: stated in summary form,
they are, first, that in addressing double-jeopardy
challenges based on the prosecution of separate
conspiracy charges, courts must conduct extensive factual
analyses of the charged conspiracies in order to assess
whether the conspiracies at issue are in fact one; and
second, that, of central importance in that factual inquiry
is the question of interdependence. So construed, contrary
to Mr. Mier-Garces’s suggestion, these cases can coexist
harmoniously with Leal’s framework.
To be sure, our cases invoking the same-evidence test
have associated it with *1021 Blockburger. See, e.g.,
Mintz, 16 F.3d at 1104; Puckett, 692 F.2d at 667; see also
Sasser, 974 F.2d at 1549 (referring to “the Blockburger
‘same evidence’ test”). And yet, in Leal, we made clear
that, in circumstances such as these where at issue are
separate conspiracy charges involving the same statute,
Blockburger is not applicable. See 921 F.3d 951.7
However, even though there appears to be at first blush
some conflict between our invocation of Blockburger in
our same-evidence-test cases and our pronouncement
about Blockburger in Leal, that conflict is not “real.”
Bryan A. Garner et al., The Law of Judicial Precedent §
36, at 300 (2016) (noting that “[a] court considering
discordant decisions must first determine whether the
perceived conflict between them is real” (emphasis
added)); accord Hansen, 929 F.3d at 1256; cf. Michael
Duvall, Resolving Intra-Circuit Splits in the Federal
Courts of Appeal, 3 Fed. Cts. L. Rev. 17, 19 (2009)
(“[I]nconsistency between two panel decisions is not

necessarily an intra-circuit split, however. A third panel
will first attempt to reconcile the conflicting cases before
concluding that a true intra-circuit split exists.”).
To begin, as we read them, our same-evidence-test cases
have never held that Blockburger’s test is controlling
double-jeopardy precedent in the context of separate
conspiracy prosecutions involving the same statute;
therefore, Leal’s pronouncement, insofar as it declares
Blockburger is not controlling in this context, does not
engender a real conflict with those cases. Specifically, it
is most reasonable to read our same-evidence-test cases as
historically relying on Blockburger to tacitly provide
support—by way of analogy—for our court’s formulation
of
a
comparison-based,
heavily
fact-intensive
double-jeopardy test: that is, the same-evidence test that
inquires whether “the facts alleged in one [conspiracy]
would sustain a conviction if offered in support of the
other [conspiracy].” Puckett, 692 F.2d at 667; cf.
McMurray, 680 F.2d at 699 (“It is apparent that the issue
as to whether one or more conspiracies existed in the
cases before us is to be resolved by an examination of the
facts. The problem is a factual one and each case is
unique.”).
The Blockburger test provides a sound basis for such an
analogy because it contemplates a comparison-based,
double-jeopardy analysis—albeit one involving two
separate statutes: “where the same act or transaction
constitutes a violation of two distinct statutory provisions,
the test to be applied to determine whether there are two
offenses or only one, is whether each provision requires
proof of a fact which the other does not.” Blockburger,
284 U.S. at 304, 52 S.Ct. 180 (emphasis added).
Blockburger would not reasonably have been cited in
these same-evidence-test cases for more than such an
analogy because the concern of the comparison-based
Blockburger test is legal, whereas the focus of the
comparison-based, same-evidence test is factual. In this
regard, as we suggested in our overview of
double-jeopardy principles, see supra Part II.B.2, the
Blockburger test focuses on statutory elements—not facts
or evidence,8 see *1022 Grady v. Corbin, 495 U.S. 508,
521 n.12, 110 S.Ct. 2084, 109 L.Ed.2d 548 (1990) (“The
Blockburger test has nothing to do with the evidence
presented at trial. It is concerned solely with the statutory
elements of the offenses charged.”), overruled on other
grounds by Dixon, 509 U.S. at 704, 113 S.Ct. 2849; see
also Currier, 138 S. Ct. at 2153 (plurality op.) (“To
prevent a second trial on a new charge [under
Blockburger], the defendant must show an identity of
statutory elements between the two charges against him;
it’s not enough that ‘a substantial overlap [exists] in the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

United States v. Mier-Garces, 967 F.3d 1003 (2020)

proof offered to establish the crimes.’ ” (second alteration
in original) (quoting Iannelli v. United States, 420 U.S.
770, 785 n.17, 95 S.Ct. 1284, 43 L.Ed.2d 616 (1975))); id.
at 2158 (Ginsburg, J., dissenting) (“To determine whether
two offenses are the ‘same,’ [the Supreme] Court has
held, a court must look to the offenses’ elements.”); see
also Iannelli, 420 U.S. at 785 n.17, 95 S.Ct. 1284 (“[T]he
Court’s application of the test focuses on the statutory
elements of the offense.”).9
Therefore, Blockburger itself is not a same-evidence test
but, rather, a “same-elements” test, which “inquires
whether each offense [i.e., of two offenses] contains an
element not contained in the other; if not, they are the
‘same offence.’ ” Dixon, 509 U.S. at 696, 113 S.Ct. 2849;
see, e.g., Lewis v. United States, 523 U.S. 155, 182, 118
S.Ct. 1135, 140 L.Ed.2d 271 (1998) (referring to the
Blockburger test as “the ‘same elements’ test”); Kansas v.
Hendricks, 521 U.S. 346, 370, 117 S.Ct. 2072, 138
L.Ed.2d 501 (1997) (same).10 Thus, in our
same-evidence-test cases, Blockburger *1023 has simply
functioned historically as a sound analogy for our
formulation of the same-evidence test—not as on-point,
controlling precedent. Therefore, insofar as Leal’s
pronouncement amounts to a conclusion that Blockburger
is not controlling in this context, it does not engender a
real conflict with our same-evidence-test cases.
It is true that Leal went further than merely indicating that
Blockburger was not controlling precedent: it indicated
that, in circumstances such as these where at issue are
separate conspiracy charges involving the same statute,
Blockburger’s rubric is not applicable at all. See Leal, 921
F.3d at 960 (noting that, in contrast to the circumstances
where Blockburger applies, “[w]hen, as here, a defendant
claims that a second conspiracy charge is for the same
conspiracy as the first conspiracy charge and therefore is
a double jeopardy violation, ‘the court must determine
whether the two transactions [alleged in the charges] were
interdependent and whether the [co-conspirators] were
“united in a common unlawful goal or purpose” ’ ”
(second and third alterations in original) (quoting Mintz,
16 F.3d at 1104)). But this Leal contention, too, is not
really in conflict with our same-evidence-test cases. As
we have discussed, in practice, panels of our court that
have invoked the same-evidence test have not rigidly
engaged in the comparison-based analysis that this test
contemplates (i.e., the analysis for which Blockburger
would function as a sound analogy). Instead, they have
conducted extensive factual analyses of the charged
conspiracies, focusing on commonalities—including time,
place, and personnel—in order to assess whether the
conspiracies at issue were in fact one—and have placed
primary importance in this factual inquiry on the question

of interdependence. Therefore, in practice, Blockburger’s
work has always been negligible in these
same-evidence-test cases—even as an analogy.
Consequently, from this practical perspective, Leal’s
pronouncement that Blockburger is inapplicable in
circumstances such as these is not materially inconsistent
with our same-evidence-test cases, notwithstanding their
linguistic invocation of Blockburger.
The upshot is that, contrary to Mr. Mier-Garces’s
suggestion, our same-evidence-test cases can coexist
harmoniously with Leal’s framework. Stated otherwise,
the apparent conflict between these cases and Leal is not
real.
In sum, we have determined that Leal’s framework
helpfully synthesizes and clarifies our precedent and,
thus, embodies the proper substantive standards for
resolving Mr. Mier-Garces’s double-jeopardy challenge.
Leal’s framework underscores the central and
determinative importance in our case law of
interdependence in the assessment of whether two
separately charged conspiracies under the same
conspiracy statute are actually a single conspiracy. And it
provides a helpful, coherent framework for examining
other factors that we historically have found to be relevant
in our interdependence inquiry. Lastly, contrary to Mr.
Mier-Garces’s suggestion, we do not believe that Leal is
really irreconcilable with our same-evidence-test cases
nor does it really conflict with those cases’ invocation of
Blockburger. Accordingly, we proceed to apply Leal’s
framework
in
resolving
Mr.
Mier-Garces’s
double-jeopardy challenge.
***
At first blush, our adoption of the Leal framework puts
Mr. Mier-Garces in a precarious position because he
advanced interdependence arguments for the first time
ever in his appellate reply brief. See, e.g., United States v.
Walker, 918 F.3d 1134, 1153 (10th Cir. 2019)
(“[A]rguments advanced for the first time in a litigant’s
reply brief will ordinarily not forestall a conclusion of
waiver.”); *1024 Ave. Capital Mgmt. II, L.P. v. Schaden,
843 F.3d 876, 886 (10th Cir. 2016) (noting that “[s]imply
raising a related appeal point” to arguments that were
made before the district court “was not enough to avoid
forfeiture”); United States v. Wayne, 591 F.3d 1326, 1332
n.4 (10th Cir. 2010) (“Because [the appellant] raised [an]
argument for the first time in her reply brief, she has
waived it on appeal.”). However, in an exercise of our
discretion, we may—and do—put aside any questions of
preservation. See, e.g., Abernathy v. Wandes, 713 F.3d
538, 552 (10th Cir. 2013) (“[T]he decision regarding what

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

United States v. Mier-Garces, 967 F.3d 1003 (2020)

issues are appropriate to entertain on appeal in instances
of lack of preservation is discretionary.”). And, though
our settled precedent (as noted above) forecloses our
formal adoption of a totality-of-the-circumstances test, as
Mr. Mier-Garces recognizes, Leal’s framework resembles
the totality-of-the-circumstances test in that it permits
consideration
of
similar
factors—ones
that
unquestionably, in certain circumstances, have a bearing
on the resolution of the interdependence question.
Therefore, we proceed to consider Mr. Mier-Garces’s
arguments, insofar as they are relevant under the Leal
framework.

C
Guided by Mr. Mier-Garces’s arguments, we apply Leal’s
framework in assessing whether the Colorado and Texas
conspiracies were actually a single conspiracy, examining
the following: (1) any shared unlawful purpose; (2)
commonalities of (a) time, (b) place, and (c) personnel;
(3) activities in furtherance of the conspiracies (i.e.,
uncharged overt acts); and (4) the statutory objects of the
conspiracies. After doing so, we conclude that the district
court did not clearly err in determining that Mr.
Mier-Garces did not carry his burden of showing that the
Colorado and Texas conspiracies were one conspiracy.
Consequently, we uphold the court’s denial of Mr.
Mier-Garces’s double-jeopardy motion.

1
As noted, the “the focal point of the analysis” for
determining whether two charged conspiracies are
interdependent is whether they are “united in a common
unlawful goal or purpose,” Daily, 921 F.2d at 1007;
accord Sasser, 974 F. at 1550—understood in the narrow
sense of “a shared, single criminal objective, not just
similar or parallel objectives between similarly situated
people,” Carnagie, 533 F.3d at 1239 (quoting Evans, 970
F.2d at 670). Mr. Mier-Garces argues that both
conspiracies—i.e.,
the
Texas
and
Colorado
conspiracies—had the same general goal of “distributing
controlled substances for profit,” Aplt.’s Reply Br. at 9,
and, more particularly, that both conspiracies were aimed
at “the importation of cocaine from Mexico to El Paso,
and the distribution of that cocaine from El Paso to other

destinations,” Aplt.’s Opening Br. at 23. However, it is at
least questionable whether this was in fact a common
criminal objective of the charged conspiracies. As the
government points out, “neither the Colorado conspiracy
nor the Texas conspiracy charged an agreement to
import.” Aplee.’s Resp. Br. at 25. Even putting that matter
aside, “[t]his common goal, however, is not by itself
enough to establish interdependence.” Carnagie, 533 F.3d
at 1239; see id. (“Although the [two conspiracies] had the
same general objective—to profit from submitting
fraudulent ... loans—it does not necessarily mean that the
separate groups were interdependent.”). Even if a
defendant is involved in two conspiracies that have the
same general goal of distributing drugs, he must
demonstrate that the conspiracies have “a shared, single
criminal objective, not just similar or parallel objectives
between similarly situated people.” Id. (quoting Evans,
970 F.2d at 670). *1025 More specifically, the defendant
must demonstrate that “the [first] conspiracy was
designed to further and to promote the success of the
[second] conspiracy.” Leal, 921 F.3d at 960 (alterations in
original) (emphasis added) (quoting Sasser, 974 F.2d at
1550); see Hamilton, 587 F.3d at 1208-09.
Mr. Mier-Garces argues that the money earned in the
Albuquerque transaction undertaken pursuant to the Texas
conspiracy facilitated the venture as a whole because a
“one-time agreement to assist in a one-time collection of
money” can be “calculated to, and in fact [can] (albeit not
to the fullest extent), meaningfully contribute to the
success of [the larger] drug operation.” Aplt.’s Reply Br.
at 8 (quoting Hamilton, 587 F.3d at 1209). In this
connection, he cites United States v. Dickey, 736 F.2d 571
(10th Cir. 1984), where ten defendants were involved in
transactions to import and then distribute drugs. We
concluded there that “[t]he record in this case clearly
establishe[d] that the success of the overall scheme of
distributing drugs for profit depended upon the successful
completion of each of the transactions.” Id. at 582. This
was because “[e]ven the remote members of the
conspiracy were undeniably dependent on the success of
each transaction to ensure the continuing prosperity of the
overall scheme,” and “[t]he success of each transaction
was essential to attain [the] ultimate goal of profitability.”
Id. In coming to this conclusion, we relied on the
principle that “[w]here large quantities of [drugs] are
being distributed, each major buyer may be presumed to
know that he is part of a wide-ranging venture, the
success of which depends on performance by others
whose identity he may not even know.” Id. (alterations in
original) (quoting United States v. Watson, 594 F.2d
1330, 1340 (10th Cir. 1979)); accord United States v.
Nunez, 877 F.2d 1470, 1473 (10th Cir. 1989) (citing
Watson, 594 F.2d at 1340).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

United States v. Mier-Garces, 967 F.3d 1003 (2020)

However, Mr. Mier-Garces’s citations to Dickey and
similar cases are unconvincing. To start, in each of the
cases Mr. Mier-Garces cites on this point—Hamilton, 587
F.3d at 1206; Horn, 946 F.2d at 741; Daily, 921 F.2d at
1007; Nunez, 877 F.2d at 1473; Dickey, 736 F.2d at
581—the defendant was challenging a jury’s conclusion
that there was only one conspiracy, either by arguing that
there was a variance or some form of insufficiency of the
evidence. In those cases, we were required to “view all of
the evidence, both direct and circumstantial, in the light
most favorable to the government.” Dickey, 736 F.2d at
581; see also United States v. Fishman, 645 F.3d 1175,
1189 (10th Cir. 2011) (explaining that once a jury has
determined that the defendant was part of a single charged
conspiracy, “[i]n reviewing a claimed variance, ‘ “we
view the evidence and draw all reasonable inferences
therefrom in the light most favorable to the government,
asking whether a reasonable jury could have found [the
defendant] guilty of the charged conspirac[y] beyond a
reasonable doubt” ’ ” (second and third alterations in
original) (quoting United States v. Caldwell, 589 F.3d
1323, 1328 (10th Cir. 2009))). In other words, when
reviewing an argument that a variance existed between
the conspiracy charged and that proven at trial, we were
construing the facts in the light most favorable to the
government’s view that a single conspiracy existed. Here,
alternatively, we are asking whether the district court’s
opposite finding, i.e., that two conspiracies existed, was
clearly erroneous. A conclusion here that the district court
did not clearly err in finding separate conspiracies would
not necessarily be at odds with the distinct determination
that a reasonable factfinder could have found one
conspiracy on the same facts, construing those facts in the
light most favorable to the government.
*1026 Furthermore, even setting aside this distinction, we
still think Mr. Mier-Garces’s argument is unconvincing.
While “it is not necessary that each conspirator agree with
all others or even know of the others, or have contact with
each of them,” McMurray, 680 F.2d at 698, there must be
“a shared, single criminal objective, not just similar or
parallel objectives between similarly situated people,”
Evans, 970 F.2d at 670. While the Colorado and Texas
conspiracies had “parallel” objectives, Mr. Mier-Garces
fails to convincingly explain how they were mutually
reinforcing.
His failure on this point is underscored by Leal. There, we
also acknowledged the principle—cited above—that
“[w]here large quantities of narcotics are being
distributed, each major buyer may be presumed to know
that he is part of a wide-ranging venture, the success of
which depends on performance by others whose identity

he may not even know.” 921 F.3d at 962 (alteration in
original) (quoting Watson, 594 F.2d at 1340). But we held
that this general principle did not establish
interdependence. Id. at 962. Even though members of the
two distinct conspiracies in Leal “each aspired to
‘distribute large amounts of narcotics ... for profit,’ that
would not establish they were pursuing that goal as part of
a shared endeavor.” Id. (citation omitted). As in Leal,
though it is clear that “the purpose of each [conspiracy]
was to sell drugs ..., the record lacks evidence that the
[Texas] and [Colorado] [conspirators] shared that purpose
with each other, and a shared objective is a necessary
predicate for interdependence.” Id. Without more, we
cannot presume that the agreement between Mr.
Mier-Garces and the confidential informant underlying
the Texas conspiracy was an agreement to join “a
wide-ranging venture,” like the Colorado conspiracy. Id.
(quoting Watson, 594 F.2d at 1340).
Thus, we conclude that the district court did not clearly
err in concluding that there was no direct evidence of a
shared, single criminal objective that would permit a
finding of interdependence. However, even without such
direct evidence, courts may still conclude that two
purportedly distinct conspiracies are in fact one
conspiracy based on, inter alia, “commonalities in time,
place, and personnel.” Id. at 961. Therefore, guided by
Mr. Mier-Garces’s arguments, we consider other factors
that nevertheless may demonstrate the existence of a
single conspiracy.

2
“[C]ommonalities in time” can be relevant to whether two
purportedly distinct conspiracies are in fact one. Id.;
accord McMurray, 680 F.2d at 699. The superseding
indictment in this case, i.e., the Colorado conspiracy,
charged that a conspiracy existed from December 8, 2013,
until March 22, 2016. The superseding indictment in the
Texas conspiracy charged that a conspiracy existed for
one day—i.e., March 8, 2015—a day during the period of
the longer, Colorado conspiracy. Thus, there was at least a
one-day overlap in the two conspiracies, i.e., March 8,
2015. We conclude that this one-day overlap, situated as
it was in the midst of a two-and-a-half-year conspiracy, is
not a strong indicator that the two conspiracies were in
fact one.
We reached such a conclusion over forty years ago in a
similar case involving two drug-trafficking conspiracies

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

United States v. Mier-Garces, 967 F.3d 1003 (2020)

in Martinez, where the defendants “emphasize[d] the fact
that December 11, 1973, the approximate date of the
alleged conspiracy charged in the Texas indictment, f[ell]
within the time period covered by the indictment in this
Oklahoma case, which cover[ed] the period from about
November, 1973, until January, 1977.” 562 F.2d at 635.
*1027 We observed that “[t]he mere fact that the same
parties are charged with being members of two
conspiracies, and that both conspiracies concerned
transactions in the same items and overlapped in time,
does not establish that the two conspiracies are the same.”
Id. at 638. And we concluded that the district court did
not clearly err in determining that the defendant presented
insufficient proof that the two conspiracies involved the
same unlawful agreement. See id. Martinez supports our
determination here.

informant to drive cocaine to Albuquerque, he took a
vehicle from the confidential informant in El Paso, loaded
it with cocaine at his home in neighboring Chaparral,
New Mexico, and returned it to the informant in El Paso
believing that the informant would then drive the vehicle
to Albuquerque. On the other hand, though the Colorado
conspiracy
also
involved
Mr.
Mier-Garces’s
loading-and-unloading activities in El Paso, there was an
entirely different geographic market targeted for the
cocaine distribution—that is, Denver, Colorado. Indeed,
the evidence presented to the Colorado grand jury
centered on the co-conspirators’ activities in the greater
Denver area. More specifically, that grand jury heard no
evidence concerning the 10.6-kilogram load of cocaine
that went to Albuquerque—that is, the sole load at issue
in the Texas conspiracy.

Furthermore, more recently, a panel of our court arrived
at a like conclusion in an unpublished decision. See
Cardenas, 105 F. App’x at 985. There, the defendant
pleaded guilty to a one-day conspiracy that had occurred
in November 2000. Id. at 986. He argued that this plea
barred a subsequent indictment for a six-year conspiracy
spanning from 1996 to 2002. Id. Our panel rejected this
argument: “[t]he fact that the two alleged conspiracies
overlapped for a single day does not establish that they
were interdependent.” Id. at 988. Cardenas’s reasoning,
too, is persuasive and supports our conclusion here.

Thus, while there was geographic overlap as to Mr.
Mier-Garces’s conduct in the two conspiracies, this does
not necessarily tell us much about the overlap of the
conspiracies more generally. As the district court noted,

Notably, Mr. Mier-Garces points us to Fifth Circuit cases
where commonalities in time were found to militate in
favor of a finding that one conspiracy existed. See United
States v. Rabhan, 628 F.3d 200, 205 (5th Cir. 2010);
United States v. Winship, 724 F.2d 1116, 1126 (5th Cir.
1984). But the commonalities in time in those cases were
more substantial than the one day here, and we do not find
them persuasive. In short, we conclude that the one-day
overlap here does not appreciably undermine the district
court’s finding of separate conspiracies, much less render
it clearly erroneous.

3
Likewise, the geographic overlap here does not
meaningfully point in the direction of one conspiracy. The
Texas indictment was based on Mr. Mier-Garces’s
agreement to distribute cocaine from El Paso to
Albuquerque. All of the conduct underlying the
conspiracy occurred either in the greater El Paso area or
in Albuquerque. Mr. Mier-Garces asked the confidential

[a] defendant in one jurisdiction ... could be involved in
multiple conspiracies[.] [E]ven though his conduct in
[one jurisdiction] all took place in [that jurisdiction],
that would not preclude him from being involved in
multiple conspiracies one or more of which may extend
[beyond] the borders of [that jurisdiction].
R., Vol. III, at 512. The court’s reasoning is sound.
Whenever one individual is involved in multiple
conspiracies, there is *1028 likely to be at least some
geographic overlap between those conspiracies. And here
the evidence about the geographic overlap of the
remainder of the conspiracies’ activities is lacking. Most
significantly, there is no indication that the extensive
agreement to distribute cocaine in the greater Denver area
had a relationship to the individual agreement to sell
cocaine in Albuquerque.
Compare the situation here to that in Mintz. There, we
concluded that the district court’s finding that marijuana
operations in Kansas and Florida were part of the same
conspiracy was not clearly erroneous in part because “the
ultimate goal was to mix the two types of marijuana [i.e.,
from Kansas and Florida] for sale in New York.” 16 F.3d
at 1106. The planned convergence in a single location
(i.e., New York) was strong evidence that a single
conspiracy existed. But here the district court was
presented with minimal evidence that these conspiracies
in different states interacted with each other or that they
were pursuing a unified “ultimate goal.” Id.
Our assessment that the evidence of geographic overlap
does not meaningfully point in the direction of one
conspiracy is further underscored by a comparison with

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

United States v. Mier-Garces, 967 F.3d 1003 (2020)

the Tenth Circuit panel’s decision in United States v.
Rodriguez-Moreno, 215 F.3d 1338, 2000 WL 504858
(10th Cir. 2000) (unpublished table decision). There,
marijuana was imported from Mexico and stored in
McAllen, Texas. Id. at *1. The defendant was charged
with one conspiracy in Texas based on an agreement to
distribute some of the marijuana stored in McAllen
throughout Texas. Id. He then later was charged in
Oklahoma with a conspiracy to distribute marijuana from
McAllen to Atlanta, Georgia; Chicago, Illinois; and Tulsa,
Oklahoma. Id. at *2. The panel concluded that the
conspiracies were not interdependent, and the defendant’s
prosecution under the second indictment did not violate
the Double Jeopardy Clause despite this overlap: “[t]he
fact that [the storage location in McAllen] was used in
both conspiracies does not establish an interdependence
between the conspiracies.” Id. at *4; see Leal, 921 F.3d at
961 (citing Rodriguez-Moreno as persuasive authority and
as an instance where “two drug distribution conspiracies
tied to the same city were distinct”). Likewise, we think
the evidence before the district court connecting both
conspiracies to El Paso did not shed much light on
whether the two conspiracies were actually one.
Finally, Mr. Mier-Garces also notes that when the
government offered a factual basis in support of his guilty
plea in the Western District of Texas, it stated that “drug
couriers would then transport the drugs to destination
cities in the U.S. and the money couriers would smuggle
the drug proceeds back into Mexico.” Suppl. App., Vol. I,
Ex. S, at 44 (Tr. of Guilty Plea Hr’g, dated Mar. 30,
2016). However, this general reference to the drug
couriers’ transportation activities in the United States is
insufficient to establish that the Colorado and Texas
conspiracies were one, much less does it significantly
undercut the district court’s factual finding to the
contrary. There is scant evidence that the agreement
between Mr. Mier-Garces and the confidential informant
underlying the Texas conspiracy extended beyond the
single transaction to Albuquerque.
In sum, we conclude that, though both conspiracies had in
common Mr. Mier-Garces’s activities in the greater El
Paso area, this geographic overlap does little to advance
Mr. Mier-Garces’s argument that the conspiracies were
one.

4
Next we consider any commonalities in personnel

between the conspiracies. This factor supports the district
court’s finding that the Texas and Colorado conspiracies
*1029 were separate conspiracies. In particular, other than
Mr. Mier-Garces, none of the individuals named in the
Colorado indictment were named in the Texas indictment
and vice versa. The only named conspirator in the Texas
indictment was Mr. Mier Garces; otherwise the
indictment just referred generally to “known and
unknown” co-conspirators. R., Vol. II, at 66. Whatever
door for speculation this common, but opaque, indictment
reference may have generated—see, e.g., United States v.
Lance, 536 F.2d 1065, 1068 (5th Cir. 1976) (noting that
“the indictment alleged that the two conspired with each
other and other unknown persons.”)—was firmly closed
shut by the government at the hearing, when it presented
evidence that known conspirators in the Colorado
conspiracy, including those charged and identified in the
Colorado indictment, were not conspirators in the Texas
conspiracy, R., Vol. III, at 207S08. And “the mere
presence of one common conspirator—here, Mr.
[Mier-Garces]—will not establish interdependence.” Leal,
921 F.3d at 963; see Carnagie, 533 F.3d at 1240 (“[T]he
mere fact” that multiple defendants interact with one
central defendant “does not establish interdependence.”);
Evans, 970 F.2d at 670 (noting that “a single conspiracy
does not exist solely because many individuals deal with a
common central player; they must be interconnected in
some way”); Martinez, 562 F.2d at 638 (“Where various
parties conspire with one common conspirator, the
evidence may nevertheless show that separate
conspiracies were involved and that no one combination
embraced the objectives of the others.”).
Mr. Mier-Garces’s primary argument to the contrary
centers on the role of an individual that Mr. Mier-Garces
refers to as “El Señor.” He claims that El Señor was “the
Mexico-based source of the cocaine” and that he and Mr.
Mier-Garces were “the constants, and the central
characters” in both the Texas and Colorado conspiracies.
Aplt.’s Opening Br. at 22; see id. (asserting that the Texas
and Colorado conspiracies “revolve[d] around the same
two, central characters,” namely, Mr. Mier-Garces and El
Señor). But the central problem with this argument is that
Mr. Mier-Garces did not present information about El
Señor to the district court at the time it ruled on the
motion to dismiss; indeed, Mr. Mier-Garces did not even
mention El Señor in his motion to dismiss or at the
double-jeopardy hearing. Accordingly, he cannot rely on
any argument concerning El Señor now. See
Regan-Touhy, 526 F.3d at 648; Hertz, 370 F.3d at 1019;
Theriot, 185 F.3d at 491 n.26. To be sure, Mr.
Mier-Garces’s motion to dismiss did discuss a
Mexico-based drug trafficker, El Muñeco, with whom Mr.
Mier-Garces admittedly worked in smuggling narcotics

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

16

United States v. Mier-Garces, 967 F.3d 1003 (2020)

into the United States. But Mr. Mier-Garces does not even
mention El Muñeco in either his opening or reply briefs.
Of course, it is not inconceivable that El Señor and El
Muñeco are two names for the same person, but Mr.
Mier-Garces does not direct us to evidence to this effect
and certainly did not present any to the district court at the
hearing. Accordingly, based on the evidence before it, the
court was in no position to make the finding that Mr.
Mier-Garces urges now—specifically, that El Señor and
Mr. Mier-Garces were “the constants, and the central
characters” in both the Texas and Colorado conspiracies.
Aplt.’s Opening Br. at 22.
Moreover, even if we could assume that El Señor and El
Muñeco are the same person, the evidence about that
person that was before the district court at the time of its
ruling does not establish an overlap in personnel such that
this factor would significantly favor a finding of one
conspiracy. Mr. Mier-Garces’s post-arrest interviews
mentioned El Muñeco’s role in coordinating the
smuggling of narcotics into the United States. But even if
this *1030 individual also had knowledge about the
conspiracies to distribute cocaine to Albuquerque and
Denver, this would not necessarily establish that the two
conspiracies were one. Sasser underscores this point.
There, the defendant “failed to demonstrate that any of the
participants in the two conspiracies—besides [the
defendant]
himself
and
possibly
[one
co-conspirator]—had any knowledge that the other
conspiracy existed.” 974 F.2d at 1550. Even with two
potential individuals aware of both conspiracies, the court
concluded that “[t]he two conspiracies operated
independently of one another, with the success of each
dependent exclusively on the individual labors of its own,
separate participants.” Id. Likewise here, even if Mr.
Mier-Garces and El Muñeco provided some minimal
overlap of personnel, there is no evidence that any of the
courier members of the Colorado conspiracy had any
knowledge of the Texas conspiracy. Cf. Cardenas, 105 F.
App’x at 988 (“[E]ven assuming the same co-conspirators
were the source of the methamphetamine that [the
defendant] was charged with distributing in both cases,
that fact does not by itself establish the two alleged
conspiracies were interdependent.”).
In sum, we conclude that this factor does not undercut the
district court’s finding of separate conspiracies, much less
does it serve to make that finding implausible.

5

As noted, the government was under no obligation to
plead overt acts in the Texas and Colorado indictments
because they charged drug-trafficking conspiracies under
21 U.S.C. § 846, and it did not do so. See, e.g., Savaiano,
843 F.2d at 1294. But the government introduced
evidence at the hearing concerning the conspirators’
activities in furtherance of the charged conspiracies—that
is, their uncharged overt acts—and that evidence was
consistent with the district court’s finding of separate
conspiracies. Recall that the Texas conspiracy was based
on Mr. Mier-Garces’s agreement to load cocaine into a
vehicle bound for Albuquerque on one distinct day. R.,
Vol. III, at 156S57, 209. The Colorado conspiracy, on the
other hand, concerned Mr. Mier-Garces’s agreement to
load cocaine into multiple vehicles that Mr. Lucero, Ms.
Mota, Mr. Neufeld-Reimer, and Ms. Wieler de Neufeld
drove to Denver and then the subsequent distribution of
that cocaine in Denver. No information about the cocaine
load that was the subject of the Texas indictment was
presented to the Colorado grand jury. Thus, the
conspiracies involved different conspiratorial activities
(i.e., uncharged overt acts). See id. at 513S14 (district
court noting “that the Texas case is specific to one 10.6
kilogram load of drugs that was intended to go from
Texas to New Mexico. ... [T]he Texas case is limited to
that Texas to New Mexico transaction, and does not touch
upon, in any way, shape or form loads coming up into
Colorado.”). As such, this factor lends supports to the
district court’s finding of separate conspiracies.
Mr. Mier-Garces makes one principal argument to the
contrary.11 He argues that, though the two charged
conspiracies “differ[ed] in the particulars of how th[eir]
goal was to be accomplished,” the fact that the
government moved to introduce at the Colorado trial Mr.
Mier-Garces’s guilty plea in the Western District of
Texas—on *1031 the ground that it was relevant to show
his knowledge and lack of mistake under Federal Rule of
Evidence 404(b)—provides support for the conclusion
that the two conspiracies were in fact “a single
conspiracy.” Aplt.’s Opening Br. at 23. But the notice that
the government filed regarding its intention to introduce
this information came only after the district court had
denied the double-jeopardy motion. Compare R., Vol. I,
at 245S46 (United States’ Notice of Intent to Introduce
Evidence Which May Qualify as Fed. R. Evid. 404(b)
Evidence, filed June 20, 2017), with id., Vol. III, at
517S18 (evincing the court’s ruling on motion to dismiss,
rendered on June 14, 2017). Accordingly, this government
action cannot provide a basis for determining that the
court erred in ruling on that motion.12 We thus reject this
argument and conclude that this factor favors the district
court’s finding of separate conspiracies. And, put another
way, this factor does nothing to indicate that the court’s

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

17

United States v. Mier-Garces, 967 F.3d 1003 (2020)

finding was clearly erroneous.

6
Finally, both indictments alleged conspiracies to violate
the same drug-trafficking statute, namely 21 U.S.C. §§
841(a)(1). Though as Mr. Mier-Garces argues, the fact
that charged conspiracies involve violations of the same
statute may provide some measure of support for a
finding of a single conspiracy, we do not find this fact to
be particularly meaningful here. See United States v.
Dortch, 5 F.3d 1056, 1063 (7th Cir. 1993) (noting that
“the fact that both indictments charged violations of the
same statute, 21 U.S.C. § 841, is the weakest evidence on
which [the defendant] relies” because “[o]ne individual
can certainly join more than one conspiracy to distribute
drugs”).
***
In sum, on this record, we cannot conclude that the
district court clearly erred in finding that the Texas and
Colorado conspiracies were separate and not one single
conspiracy. Thus, we find no error in the district court’s
denial of Mr. Mier-Garces’s motion to dismiss on
double-jeopardy grounds.

III
Mr. Mier-Garces separately argues—albeit briefly—that
the district court erred in applying U.S.S.G. §
2D1.1(b)(12)’s enhancement for maintaining a premises
for the purpose of manufacturing or distributing a
controlled substance. We conclude that the district court
did not err in applying this enhancement.

A
“When reviewing a district court’s application of the
Sentencing Guidelines, we review legal questions de novo
and we review any factual findings for clear error, giving

due deference to the district court’s application of the
guidelines to the facts.” United States v. Craig, 808 F.3d
1249, 1255 (10th Cir. 2015) (quoting United States v.
Doe, 398 F.3d 1254, 1257 (10th Cir. 2005)). “A factual
finding is clearly erroneous ‘only if [it] is without factual
support in the record or if, after reviewing all the
evidence, we are left with *1032 a definite and firm
conviction that a mistake has been made.’ ” Id. (alteration
in original) (quoting United States v. Mullins, 613 F.3d
1273, 1292 (10th Cir. 2010)).

B
Section 2D1.1(b)(12) of the Guidelines provides that “[i]f
the defendant maintained a premises for the purposes of
manufacturing or distributing a controlled substance,
increase [the offense level] by 2 levels.” “Among the
factors the court should consider in determining whether
the defendant ‘maintained’ the premises are (A) whether
the defendant held a possessory interest in (e.g., owned or
rented) the premises and (B) the extent to which the
defendant controlled access to, or activities at, the
premises.” U.S.S.G. § 2D1.1 cmt. n.17. Additionally,
“[m]anufacturing or distributing a controlled substance
need not be the sole purpose for which the premises was
maintained, but must be one of the defendant’s primary or
principal uses for the premises.” Id.
In determining whether manufacturing or distributing a
controlled substance was the primary or principal use of
the premises, “the court should consider how frequently
the premises was used by the defendant for manufacturing
or distributing a controlled substance and how frequently
the premises was used by the defendant for lawful
purposes.” Id. Our cases have additionally looked to the
following factors when evaluating the application of this
enhancement:
(1) the frequency and number of drugs sales occurring
at the home; (2) the quantities of drugs bought, sold,
manufactured, or stored in the home; (3) whether drug
proceeds, employees, customers, and tools of the drug
trade (firearms, digital scales, laboratory equipment,
and packaging materials) are present in the home, and
(4) the significance of the premises to the drug venture.
United States v. Murphy, 901 F.3d 1185, 1191–92 (10th
Cir. 2018); accord United States v. Lozano, 921 F.3d 942,
946 (10th Cir. 2019).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

18

United States v. Mier-Garces, 967 F.3d 1003 (2020)

C
Mr. Mier-Garces argues that the district court “erred in
concluding that the government had proved by a
preponderance of the evidence that Mier-Garces’ home in
Chaparral was used primarily or principally for
distributing a controlled substance.” Aplt.’s Opening Br.
at 27. We disagree.
The district court made the factual finding that the
primary purpose of the property was the storage or
distribution of controlled substances. That finding was
based on the court’s subsidiary findings that “there’s no
question that the way this worked is drugs came up from
Mexico, [and] they were stored [at the house] until they
were transferred up to other parts of the United States.”
R., Vol. IV, at 934. And the court further found that “[t]he
reverse process ensued, when money was coming back.
At a bear [sic] minimum, [the home] [wa]s for storage.”
Id. The court relied on pictures of the home that
demonstrated that it was a place “that a person does not
really live in.” Id. at 935. This was because the pictures
revealed that there was “no furniture,” no refrigerator, “no
stove,” “stuff thrown all over the floors,” and “a mess”
that rendered the home “not usable.” Id.; see Suppl. App.,
Vol. I, Ex. 57 (photographs of Mr. Mier-Garces’s home).
In addition to these facts supporting the conclusion that
Mr. Mier-Garces only stayed at the home temporarily,
while using it primarily or principally to store or
distribute drugs, the court relied on “Mr. Mier-Garces’
own statement that he was moving drugs every—at least
twice a month, which is a repetitive, continuing use of
that property to store, load, unload *1033 cars, store drugs
and money, unload and load cars.” R., Vol. IV, at 936.
The court also relied on Mr. Mier-Garces’s statement to
the probation officer that “he doesn’t take mail at that
address.” Id. Because “it looks like no one stays there
with any regularity” and “there is repetitive drug activity
coming off of that property,” the court found the evidence
“tips, by a preponderance, in favor of the adjustment.” Id.
Finally, as the government notes, see Aplee.’s Resp. Br. at
31–32, the Probation Office noted in the PSR that Mr.
Mier-Garces “spent the majority of his time at his
mother’s address,” not the residence at issue, R., Vol. II,
at 598 (PSR, dated Jan. 26, 2018)—a fact that he did not
dispute.
In our view, for two salient reasons, there can be little (if
any) doubt that the district court’s determination to
impose the enhancement was not clearly erroneous or

otherwise improper. First, the commentary to the
Guidelines makes clear that “storage of a controlled
substance for the purpose of distribution” can qualify as
maintaining the premises for the purposes of distributing
controlled substances. U.S.S.G. § 2D1.1 cmt. n.17; see
Murphy, 901 F.3d at 1194 (concluding that the
enhancement applied because the evidence led to the
“reasonable inference that [the defendant] used his home
to store drugs for distribution outside his home”). Thus,
Mr. Mier-Garces’s admitted use of the home to store
drugs and conceal them in vehicles for transport on a
bi-weekly basis amply supports the district court’s
conclusion that a primary or principal use of the home
was the distribution of controlled substances. See R., Vol.
IV, at 534S35, 544S45 (describing use of the home for
loading vehicle with drugs for couriers).
Second, the district court’s finding that Mr. Mier-Garces
did “not really live” in the house is not clearly erroneous.
Mr. Mier-Garces argues that his “period of incarceration
should not be extended because he is untidy.” Aplt.’s
Opening Br. at 27S28. But Mr. Mier-Garces was not
punished for failing to clean his room; the extreme
untidiness was only relevant because it indicated that he
did not actually live at the home. And the significance of
that fact has not been lost on prior panels of this court:
they have noted that similar features of a home may
indicate that it is primarily or principally being used for
the distribution of controlled substances. See United
States v. Mays, 606 F. App’x 911, 916 (10th Cir. 2015)
(unpublished) (noting “[t]he house had no bedroom
furniture” before affirming application of the
enhancement); United States v. Cortez-Diaz, 565 F.
App’x 741, 748 (10th Cir. 2014) (unpublished) (noting
that “[t]he court also found it significant that the house
had no furniture” before concluding that the defendant
“maintained the house to store or distribute a controlled
substance”).
Mr. Mier-Garces also attempts to explain away the fact
that he did not receive mail at his home as being caused
by his frequent travel; he thus argues that it made sense
for him to have his mail sent to his mother’s home.
Aplt.’s Opening Br. at 27S28. But this at most shows that
multiple inferences were available to be made—some
innocent, and some suggestive of the primary or principal
use of the home for drug trafficking. It does not show that
the district court clearly erred. See, e.g., United States v.
Cortes-Gomez, 926 F.3d 699, 708 (10th Cir. 2019) (“If
the district court’s account of the evidence is plausible in
light of the record viewed in its entirety, the court of
appeals may not reverse it .... Where there are two
permissible views of the evidence, the factfinder’s choice
between them cannot be clearly erroneous.” (quoting

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

19

United States v. Mier-Garces, 967 F.3d 1003 (2020)

Anderson v. Bessemer City, 470 U.S. 564, 573–74, 105
S.Ct. 1504, 84 L.Ed.2d 518 (1985))). And while Mr.
Mier-Garces points to other features of the home that
purportedly demonstrate *1034 that he lived there,13 none
of these features demonstrate that the district court’s
conclusion that “no one stays there with any regularity” is
clearly erroneous. R., Vol. IV, at 936.
Furthermore, even if Mr. Mier-Garces had stayed there
regularly, the regular and repeated use of the home for
drug trafficking would still have provided the district
court with ample basis to find that a primary or principal
use of the home was for drug distribution. See Murphy,
901 F.3d at 1191 (“[O]ne may use his home (in the broad
sense of the word) for lawful purposes 100% of the time
and also use it (in the same broad sense of the word) for
unlawful drug activity 100% of the time. In other words,
both simultaneous uses may well be primary.”
(underlining omitted)); see also id. (“A substantial drug
distribution that regularly and quickly passes through the
home (two or three days) on a bi-monthly or tri-monthly
basis may qualify as a primary use of the premises for
drug-related purposes ....”).

In sum, we conclude that the district court did not err in
applying this enhancement.

IV
For the foregoing reasons, we conclude that the district
court correctly determined that the Double Jeopardy
Clause was not violated and that a sentencing
enhancement under U.S.S.G. § 2D1.1(b)(12) was
appropriate. We thus AFFIRM the court’s judgment.
All Citations
967 F.3d 1003

Footnotes
1

The Probation Office used the 2016 edition of the Guidelines in preparing the PSR. This decision is not challenged here, and we
accordingly use that edition in evaluating the issues in this appeal.

2

Mr. Mier‐Garces (through counsel) indicated at the hearing that he had planned to renew the double‐jeopardy motion but he
ultimately did not do so. See R., Vol. III, at 485 (“Well, I submit until jeopardy attaches, by selecting the jury in this case, I will be
renewing that motion, and we will see what the government’s evidence is at trial.”).

3

In his discussion of the appropriate standard of review, Mr. Mier‐Garces cites out‐of‐circuit authority that treats the question of
whether the defendant has been prosecuted in violation of the Double Jeopardy Clause for one conspiracy—where there were
actually two charged conspiracies—as a matter warranting de novo review. See United States v. Sertich, 95 F.3d 520, 524 (7th Cir.
1996) (noting that the court reviews “the [district] court’s ruling based on all the evidence available to it to determine, de novo,
whether the preponderance of the evidence points to two conspiracies or only one”). Suffice it to say, we must adhere to our
own precedent on this point.

4

In his reply brief, Mr. Mier‐Garces rightly pointed out that this is a “new position” for the government. Aplt.’s Reply Br. at 2. In
opposing Mr. Mier‐Garces’s double‐jeopardy motion, the government had urged the district court to apply the
totality‐of‐the‐circumstances test. See R., Vol. II, at 272 (Resp. to Def.’s Mot. to Dismiss, filed Mar. 14, 2017) (“When a defendant
claims he was previously convicted of the same conspiracy, courts typically use a ‘totality of the circumstances’ test and consider
several factors to determine whether the two charged conspiracies constitute the same offense for double jeopardy purposes.”).
Moreover, as the district court observed, neither the government nor Mr. Mier‐Garces ever uttered the word “interdependence”
in the hearing on Mr. Mier‐Garces’s double‐jeopardy motion. Id., Vol. III, at 516–17 (Tr. of Dist. Ct.’s Mots. Rulings, dated June 14,
2017) (noting that “neither side has really addressed” interdependence and that it has “not been raised”). But the burden to
establish that the Texas and Colorado conspiracies were a single conspiracy is squarely on the shoulders of Mr. Mier‐Garces, see,
e.g., Leal, 921 F.3d at 959 n.6; therefore, insofar as the record could have been, but was not, optimally developed on the critical
issue of interdependence, Mr. Mier‐Garces must bear any adverse consequences (whether great or small) of that failing.

5

About one year later, in Puckett, we acknowledged such a critique of the same‐evidence test by our sister circuits but did not
expressly cite Wilkett. See 692 F.2d at 668 (“[W]e recognize that it has been criticized in recent years as an inadequate
measurement of double jeopardy when applied to multiple prosecutions for conspiracy charges.”). One of the cases that Puckett
cited was the Eighth Circuit’s decision in United States v. Tercero, 580 F.2d 312 (8th Cir. 1978), where the court observed the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

20

United States v. Mier-Garces, 967 F.3d 1003 (2020)

following:
By choosing one set of overt acts in one indictment and a different set of overt acts in another indictment, the government is
able to carve one large conspiracy into several smaller agreements. The “same evidence” test, which focuses on the evidence
required to support a conviction for each indictment, provides no protection to the defendant from this type of prosecutorial
action.
Id. at 315.
6

Indeed, it is telling that, in declining to endorse the totality‐of‐the‐circumstances test, we concluded in Sasser and Puckett that
the result would have been the same under either test. See Sasser, 974 F.2d at 1550 (“[W]e conclude that under either the
‘totality of the circumstances’ test or the ‘same evidence’ test, the record demonstrates that two separate conspiracies existed
and that Sasser’s prosecution was not barred by the Double Jeopardy Clause.”); Puckett, 692 F.2d at 667–68 (“[W]hether the
‘totality of the circumstances’ test or the ‘same evidence’ test is applied, the record before us indicates that the Colorado and
Oklahoma trials concerned separate conspiracies.”).

7

Recall that we said the following: “When the government charges a defendant under separate statutes for the same conduct, the
test derived from Blockburger [ ], determines whether the crimes are the ‘same offense’ for double jeopardy purposes.” Leal, 921
F.3d at 960 (emphasis added). On the other hand, “[w]hen the government charges a defendant with committing two (or more)
conspiracies [under the same conspiracy statute], whether the charges are for the ‘same offense’ depends on whether they ‘are
in fact based on a defendant’s participation in a single conspiracy.’ ” Id. (quoting Daniels, 857 F.2d at 1393).

8

Indeed, a leading same‐evidence‐test case, Puckett, supports this reading of our cases as using Blockburger as no more than a
sound analogy, because—after describing evidentiary (i.e., factual) materials that courts may permissibly consider in applying the
same‐evidence test—Puckett cites a case that undertook Blockburger’s comparison‐based, statutory‐elements (i.e., legal)
analysis, using a citation signal reserved for analogous authority, that is, “cf.” See 692 F.2d at 668 (citing United States v. Cowart,
595 F.2d 1023, 1029–30 (5th Cir. 1979)).

9

We, too, have recognized as much. See Angilau, 717 F.3d at 787 (“In assessing whether the crimes require proof of different
facts, we do ‘not focus on the acts charged in the indictment ... but rather on the elements of the crimes.’ ” (omission in original)
(quoting Davis, 793 F.2d at 248)); accord Wood v. Milyard, 721 F.3d 1190, 1195 (10th Cir. 2013) (“[Blockburger] requires us to
inquire whether each offense at issue contains an element not contained in the other.” (quoting United States v. Christie, 717
F.3d 1156, 1173 (10th Cir. 2013))); United States v. Pursley, 474 F.3d 757, 769 (10th Cir. 2007) (“[W]e look to the elements of the
two crimes for which [the defendant] was convicted to determine whether a double jeopardy violation exists.”); see also United
States v. Isabella, 918 F.3d 816, 847 (10th Cir. 2019) (“To determine what may be a lesser‐included offense, courts focus on the
textual elements of the offenses. In general, statutes punish the ‘same offense’ when one offense contains all the elements of
another even if it contains additional elements.” (citation omitted)).

10

We acknowledge that, on occasion, members of the Supreme Court have referred to the Blockburger test as the “same evidence”
test. Sanabria, 437 U.S. at 70 n.24, 98 S.Ct. 2170; see also Whalen v. United States, 445 U.S. 684, 705 & n.1, 100 S.Ct. 1432, 63
L.Ed.2d 715 (1980) (Rehnquist, J., dissenting) (same); Ashe v. Swenson, 397 U.S. 436, 463, 90 S.Ct. 1189, 25 L.Ed.2d 469 (1970)
(Burger, J., dissenting) (same). However, “[t]his is a misnomer.” Grady, 495 U.S. at 521 n.12, 110 S.Ct. 2084 (“Terminology in the
double jeopardy area has been confused at best. Commentators and judges alike have referred to the Blockburger test as a ‘same
evidence’ test. This is a misnomer.” (citations omitted)); see also William H. Theis, The Double Jeopardy Defense and Multiple
Prosecutions for Conspiracy, 49 SMU L. Rev. 269, 272 & n.16 (1996) (noting that “[a]lthough this test [i.e., Blockburger] examines
and compares the elements of the statutes in question, it has often been referred to as a ‘same evidence’ test,” but the Supreme
“Court has recently beg[u]n to use the more descriptive phrase – ‘same elements’ ”).

11

Confronted by the disparate activities of the Texas and Colorado conspiracies, Mr. Mier‐Garces also falls back on his contention
that the conspiracies had a “common goal” involving “the distribution of th[e] cocaine from El Paso to other destinations.” Aplt.’s
Opening Br. at 23. But, as noted supra, this argument concerning a general unlawful goal sheds little light on the question of
whether the two conspiracies were in fact one.

12

Moreover, on the merits, a nearly identical argument was rejected in Leal. 921 F.3d at 965 (“The Government’s attempt to show
common plan, knowledge, and lack of mistake or accident under Rule 404(b) may show that Mr. Leal handled the deals in a
similar manner, but it does not show the conspiracies were interdependent.”). Consistent with Leal’s reasoning, it is not clear
why Rule‐404(b) evidence from the Texas conspiracy that tended to show that Mr. Mier‐Garces was familiar with the kind of
drug‐trafficking techniques employed in the Colorado conspiracy would tell us anything about whether the Texas conspiracy and
the Colorado conspiracy were a single conspiracy.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

21

United States v. Mier-Garces, 967 F.3d 1003 (2020)

13

Aplt.’s Opening Br. at 27S28 (“[T]he photographs show that there is food in the kitchen and what appear to be clean dishes
drying in one half of the sink. There are draperies and blinds on the windows. The bedroom closet is full of clothes and shoes.
There is a bed, with pillows, sheets and blankets. There is a nightstand with a jar of change on it and what appears to be packages
of medicine. There is a flat screen TV on a dresser in the bedroom and a satellite dish on the roof. There are decorations hanging
on the walls, and trinkets like model cars and animal sculptures lining the shelves. The bathroom shower has a curtain on it and
what appears to be soap and shampoo on the shelves inside.”).

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

22

Appendix B

Appellate Case: 18-1085

Document: 010110389229

Date Filed: 08/10/2020

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
UNITED STATES OF AMERICA,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

August 10, 2020
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellee,
v.
EDGAR RENE MIER-GARCES,

No. 18-1085
(D.C. No. 1:15-CR-00360-RM-2)
(D. Colo.)

Defendant - Appellant.
_________________________________
ORDER
_________________________________
Before BRISCOE, HOLMES, and McHUGH, Circuit Judges.
_________________________________
Appellant's petition for panel rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

Appendix C

Case 1:15-cr-00360-RM Document 360 Filed 06/19/17 Page 19 of 27

1

backwards in time to the interrogation statement, I have

2

already said I don't find that to be the case.

3

19

I do mention, in passing, also, that the -- there is

4

abundantly clear to me that Mr. Mier-Garces was not told about

5

the Colorado matters at the time of the interrogation

6

interview.

7

told, again makes no difference, but I note that Mr. Ortega

8

said that he told Ms. Romero, who was the first Federal Public

9

Defender to represent Mr. Mier-Garces, that he was -- something

The record is less clear as to when he was first

10

along the lines he was facing charges in Colorado.

11

said he had no knowledge and that Ms. Romero had no knowledge

12

until after the proffer, where there's some comment, perhaps,

13

made in the hallway, but regardless of how that would be

14

resolved, it doesn't impact any of the rulings I have made thus

15

far.

16

Mr. Villa

The second and more meaty, if you say -- if I were to

17

use that term, aspect of the Motion To Suppress is

18

double-jeopardy claim, and it is a tricky issue.

19

by that is that what I am being told is that the El Paso or

20

Texas conspiracy and the Colorado conspiracy are really the

21

same charge, and as a consequence of the way that Texas and

22

Colorado have divvied up the pie, so to speak, Mr. Mier-Garces

23

is being subjected to multiple prosecutions and perhaps,

24

depending upon how the prosecution in Colorado resolves,

25

multiple punishment for the same criminal offense.

What I mean

511

Case 1:15-cr-00360-RM Document 360 Filed 06/19/17 Page 20 of 27

1

20

I don't think there's any dispute between either side

2

that a single conspiracy cannot be divvied up amongst law

3

enforcement or prosecutorial officials in a way that requires

4

multiple prosecutions of the same offense over and over again

5

by different authorities.

6

issue is, what is the evidence that -- that the Colorado case

7

and the Texas case are, in fact, the same conspiracy?

8
9

I don't think that's the issue.

The

I find that the evidence on that issue is little, and
what little there is, is inadequate.

I'm told that the

10

Colorado case involves activities that occurred in Texas, and

11

certainly the loads that came up with Ms. Mota and the

12

Neufelds, there's some evidence that there were load of cars --

13

loading of cars or unloading of cars, that took place in Texas.

14

That doesn't mean that the Colorado conspiracy and the Texas

15

conspiracy is one and the same.

16

geography.

17

Colorado, could be involved in multiple conspiracies, even

18

though his conduct in Colorado all took place in Colorado, that

19

would not preclude him from being involved in multiple

20

conspiracies one or more of which may extend bond the borders

21

of Colorado.

22

It's not a matter of mere

A defendant in one jurisdiction, for example

So I note the fact that counsel wants me to pay

23

attention to, but it does not suggest or answer the question

24

whether or not I'm dealing with one or more than one

25

conspiracy.

512

Case 1:15-cr-00360-RM Document 360 Filed 06/19/17 Page 21 of 27

1

21

I am pointed to the fact that it is unusual to have a

2

conspiracy charged that occurred only one day, as the Texas

3

conspiracy is alleged to have done.

4

arguably unusual, and it certainly is not my experience to see

5

limited one-day conspiracies, but again, it does not answer the

6

question of whether or not the two are the same.

7

an unusual aspect to it.

8
9

I note that that is

There may be

The defendant, to some extent, rightfully says, Well
there's no co-conspirators that are identified in the Texas

10

Indictment and therefore it is difficult to compare the

11

co-conspirators there to the co-conspirators here.

12

that's a true statement, but ultimately the question is, Is

13

that, in and of itself, evidence that it is a single

14

conspiracy?

15

difficulties with what the defendant can argue, given the state

16

of the revealed record, but that doesn't mean that I overlook

17

the requirement that there be shown -- it be shown to be the

18

case that we're dealing with one rather than two conspiracies.

19

And it is not.

What do I know?

I grant you

I grant you that there may be

I know this, the agents in the

20

Colorado case and the Texas case talked to each other to

21

de-conflict, in other words, to make sure that they were not

22

charging and talking about the same conduct.

23

Texas case is specific to one 10.6 kilogram load of drugs that

24

was intended to go from Texas to New Mexico.

25

testimony of Agent Saenz, that the C.I. that triggered the

I know that the

I know, from the

513

Case 1:15-cr-00360-RM Document 360 Filed 06/19/17 Page 22 of 27

22

1

Texas investigation, and the way it began was that the C.I.

2

contacted law enforcement and told law enforcement that he was

3

being asked -- he or she, I don't know the gender of the

4

individual -- was being asked to find someone to recruit

5

someone to drive drugs from Texas to New Mexico.

6

is that that C.I. is no one that is a party to the Colorado

7

Indictment.

8
9

The testimony

I know that there's no evidence before me that the
same co-conspirators are involved, with the possible exception

10

of the individual whose name I'm now going to brutally

11

mispronounce, Mr... the individual from Texas who was --

12

referenced as a source of supply, Muneco?

13

MR. McNEILLY:

14

THE COURT:

15

MR. McNEILLY:

16
17

The defendant called him Muneco.

Could you help my court reporter, please.
The way it's written in the R.O.I. is

it's M U N, with a tilde over it, E C O.
THE COURT:

Thank you, sir.

But even that

18

possibility, at this juncture, is not enough to establish that

19

both conspiracies are, in fact, one.

20

I have in front of me?

21

as the complete colloquy in Texas, makes clear that the Texas

22

case is limited to that Texas to New Mexico transaction, and

23

does not touch upon, in any way, shape or form loads coming up

24

into Colorado.

25

I -- what other facts do

I know that the PSR from Texas, as well

The various pleadings filed in this case, in Colorado,

514

Case 1:15-cr-00360-RM Document 360 Filed 06/19/17 Page 23 of 27

23

1

show that what we're looking at here are loads that are

2

different from that 10.6 kilogram load that is the subject of

3

the Texas Indictment, and while defense counsel is absolutely

4

correct, that it's not about what some government lawyer says

5

or what probation says, the question is, What do the various

6

grand juries do?

7

fact, for the same conspiracy?

8

statement does not translate into evidence that the two grand

9

juries returned Indictments that constitute the same

10

Did they return an Indictment that is, in
The correctness of that

conspiracy.

11

I have had the advantage of reading the grand jury

12

testimony in the Colorado case, as that was included in the

13

exhibits.

14

reference to the 10.6 kilogram transaction that is the subject

15

of the Texas case.

16

I have been through it line and versus.

There is no

Again, I agree with the concept, but you can't carve

17

up one conspiracy into many parts and repeatedly prosecute a

18

defendant, but I don't find an evidentiary basis for that in

19

the current case.

20

well, says, look at other matters.

21

circumstances.

22

they are different.

23

the Colorado case is December 2013 through September 2nd, 2015.

24
25

The government says, and the defendant, as
Look at the totality of the

Look at the time periods involved.

I note that

The Texas case is March 8, 2015; whereas,

In terms of the members of the conspiracy, I can't
make much by way of a comparison, because there are multiple

515

Case 1:15-cr-00360-RM Document 360 Filed 06/19/17 Page 24 of 27

24

1

conspirators named in the Colorado case but the only individual

2

named in the Texas case is Mr. Mier-Garces.

3

The locations, they are different, I give you that.

4

There are loads coming into Colorado and there were loads going

5

into New Mexico, and I note that they are different.

6

In terms of overt acts and statutory provisions, the

7

analysis that is sometimes performed, with respect to those

8

matters, does not advance the ball in this case.

9

charge a drug conspiracy under Title 21, and Title 21 drug

Both cases

10

conspiracies don't require overt acts, and so there's no

11

ability to really compare overt acts.

12

government has noted, that to the extent that the Colorado

13

Indictment contains substantive drug offenses, albeit not

14

involving Mr. Mier-Garces, that those, to some extent, are the

15

functional equivalent, or at least can be viewed as the

16

functional equivalent, of overt acts, because overt acts don't

17

have to be performed by each and every co-conspirator.

18

extent that I look at that, I note that the individual drug

19

transactions, the quote/unquote overt acts, that are charged in

20

the Colorado case, are separate, different and completely

21

distinct from those charged in Texas.

22

Although, I note, as the

To the

Finally, what I will say is that there's a factor that

23

I think the Tenth Circuit may think is particularly important,

24

that neither side has really addressed, so I simply comment on

25

it, in terms of a lack of evidence, and that is

516

Case 1:15-cr-00360-RM Document 360 Filed 06/19/17 Page 25 of 27

25

1

interdependence.

As each side knows, Tenth Circuit, unlike

2

some other, requires interdependence among conspirators, and if

3

there were, in fact, one conspiracy or two conspiracies, the

4

question of interdependence might be an important factor in

5

deciding whether I was dealing with one or two.

6

For example, if the events that took place in Texas,

7

leading from Texas to New Mexico, somehow were interdependent

8

with the objectives and the co-conspirators in the Colorado

9

case, that one benefited from the other or something to that

10

extent, it might lean in the direction of a single conspiracy;

11

whereas, if there was no interdependence between these events

12

and the actors in them, with respect to the various events, it

13

might lean in the direction that they are wholly separate

14

conspiracies.

15

being present or absent.

16

What I have is no evidence on interdependence
As I said, it's not been raised.

So at the end of the day the factors -- the

17

information that I do have suggests that these are separate and

18

distinct prosecutions, and separate and distinct conspiracies.

19

There's a block of other matters that one might look to, that I

20

don't have evidence on, and so where I conclude -- what I

21

conclude is that based on the record before me it has not been

22

established that the Texas case and the Colorado case are, in

23

fact, one and the same, and that these two conspiracies are, in

24

fact, the same conspiracy, whether that be Colorado is part of

25

the Texas conspiracy, Texas conspiracy is part of the Colorado

517

Case 1:15-cr-00360-RM Document 360 Filed 06/19/17 Page 26 of 27

26

1

conspiracy or the Colorado conspiracy and the Texas conspiracy

2

are part of some larger conspiracy.

3

crafted and diagrammed for me, the evidence does not support

4

the conclusion, therefore I deny that motion, as well.

5
6

Regardless of how it is

In summary 210, 220 and 227 are each denied.

Any

further record or statement you wish to make, Mr. McNeilly?

7

MR. McNEILLY:

8

THE COURT:

Or, Mr. Sears?

9

MR. SEARS:

No, Your Honor.

10

THE COURT:

All right.

No, Your Honor.

Thank you.

Thank you.

Let me just ask, for a moment,

11

something that doesn't have anything to do with

12

Mr. Mier-Garces.

13

hearings on the other defendants in this case?

14

it at the forefront of your mind, Mr. McNeilly.

15

know we have dealt with Mr. Lozano, Mr. --

What do we have left by way of evidentiary

MR. McNEILLY:

16

If you have got
I don't.

Mr. Molina-Villalobos, we were going to

17

have a motion hearing this Monday the 12th and the motion

18

lapsed.

19
20
21

THE COURT:

Got withdrawn.

MR. McNEILLY:
Mr. Lara-Gallegos.

23

evidentiary hearing.

25

We dealt with three other

defendants.

22

24

I

THE COURT:

Mr. Fernandez-Barron, Mr. Lozano,

Those are the motions requiring an

I know there are some suppression issues

and there's still some Jencks stuff, but I want to make sure

518

